3   October 1, 2012 – March 31, 2013
               TIGTA SEMIANNUAL REPORT TO CONGRESS




October    3                                         October 1, 2012 – March 31, 201
1, 2012
      –
 March
     31,
   2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS



      Inspector General’s
      Message to Congress
It gives me great pleasure to submit this Semiannual Report
to Congress, summarizing the accomplishments of the
Treasury Inspector General for Tax Administration (TIGTA)
for the reporting period of October 1, 2013 to March 31,
2014. TIGTA’s achievements in promoting its mission to
provide oversight of the Internal Revenue Service (IRS) and
protect the integrity of Federal tax administration are
showcased through the various audits, investigations, and
inspections and evaluations summarized in this report.

This reporting period marked the 15th anniversary of the date when TIGTA officially stood
up, on January 19, 1999, following a reorganization of the IRS pursuant to the Internal
Revenue Service Restructuring and Reform Act of 1998 (RRA 98). During this reporting
period, TIGTA’s combined audit and investigative efforts have resulted in the recovery,
protection, and identification of monetary benefits totaling $2.3 billion. During this same
period, TIGTA’s Office of Audit has completed 20 audits, and its Office of Investigations
has completed 1,418 investigations.

Increasing voluntary taxpayer compliance and reducing the Tax Gap remain the focus of
many IRS initiatives and, consequently, much of TIGTA’s oversight activities. For
instance, one audit report completed during this reporting period determined that the
IRS has not developed processes to address the majority of discrepancies between
deductions claimed and income reported for alimony payments. Our analysis of
567,887 returns from Tax Year (TY) 2010 determined that the amount of deductions
claimed for alimony exceeded the amount of income reported by more than $2.3
billion.

Our audit work for the reporting period included a number of other reports that
focused on tax compliance. One such report concluded that a number of tax-exempt
organizations have substantial delinquent payroll taxes, and that approximately 1,200
such organizations owed more than $100,000 each. In another report, TIGTA
determined that the IRS’s amended tax return filing and processing procedures need
to be modernized and improved to reduce erroneous refunds, processing costs, and
taxpayer burden. In yet another report, we found that during TY 2011, taxpayers
potentially made approximately $53 million in improper claims for contributions to
qualifying retirement accounts.

Examining the Awards Program of the IRS, TIGTA’s auditors found that the program
complied with Federal regulations, but that some IRS employees with tax compliance
                                                     October 1, 2013 – March 31, 2014     3
          TIGTA SEMIANNUAL REPORT TO CONGRESS


issues received awards. While IRS policies do not specifically prohibit the practice,
TIGTA concluded that providing awards to those employees appears to run counter to
the intent of the awards system and the IRS’s charge to ensure the integrity of the
Federal system of tax administration.

IRS executive travel has also been an area of inquiry for TIGTA during the reporting
period. Our Office of Inspections and Evaluations reviewed the travel records for 31
IRS executives to determine whether their travel appeared to be properly classified as
taxable or nontaxable. TIGTA found that the tax classification of travel for nine
executives appeared to be incorrect based on their travel patterns and the IRS’s
validation, and that for three executives the classification was not made in a timely
manner.

TIGTA’s Office of Investigations (OI) is tackling a sharp rise in threats to the Federal
system of tax administration, in particular a steep increase in scams involving identity
theft and telephone fraud. During this reporting period, TIGTA received reports of tens
of thousands of contacts and has become aware of thousands of victims who have
collectively paid over $2 million as a result of a single scam, in which individuals
fraudulently claiming to be IRS officials make unsolicited calls to taxpayers and demand
money.

Unfortunately, the ease of committing identity theft also tempts IRS employees. OI is
continuing its efforts to protect taxpayers from the few IRS employees who choose to
violate the trust placed in them by taxpayers. For example, TIGTA’s investigative
efforts resulted in convictions against, or guilty pleas by, corrupt IRS employees who
separately conducted or participated in the conduct of criminal tax identity theft
schemes in Kentucky, Georgia, Missouri, Pennsylvania, and California.

At the same time, OI also continued to carry out its statutory mandate to protect the
employees and facilities of the IRS against threats of violence or other means of
intimidation. One investigation led to the indictment of a taxpayer in Rhode Island for
retaliating against an IRS agent by threatening to assault and murder the agent and
the agent’s family member. Another investigation led to a guilty plea by a Florida
resident for using threats of force to intimidate and impede an IRS Revenue Officer.

Now in its sixteenth year, TIGTA continues the steadfast pursuit of its mission to provide
effective and efficient oversight of the Nation’s tax administration system. I am proud of
our employees and of their relentless commitment to this mission.

                                            Sincerely,



                                      J. Russell George
                                      Inspector General

4        October 1, 2013 – March 31, 2014
                              TIGTA SEMIANNUAL REPORT TO CONGRESS



                                            Table of Contents
Inspector General’s Message to Congress ..................................................................                                    3

TIGTA’s Profile ....................................................................................................................          7
        Statutory Mandate ..........................................................................................................          7
        Organizational Structure ................................................................................................             8
        Authorities ......................................................................................................................    8

TIGTA’s Highlights .............................................................................................................
                                                                                                                 9
        Examples of High-Profile Cases by the Office of Investigations .................................... 9
        Examples of High-Profile Reports by the Office of Audit................................................ 11

Promote the Economy, Efficiency, and Effectiveness of Tax Administration ..... 13
        Security for Taxpayer Data and Employees ..................................................................                          13
        Tax Compliance Initiatives .............................................................................................             15
        Implementing the Affordable Care Act and Other Tax Law Changes ............................                                          17
        Fraudulent Claims and Improper Payments...................................................................                           19
        Achieving Program Efficiencies and Cost Savings ........................................................                             20

Protect the Integrity of Tax Administration .................................................................. 23
        The Performance Model .................................................................................................              23
        Performance Area: Employee Integrity .........................................................................                       23
        Performance Area: Employee and Infrastructure Security ............................................                                  32
        Performance Area: External Attempts to Corrupt Tax Administration ...........................                                        33
        Investigative Support .....................................................................................................          38

Advancing Oversight of America’s Tax System.......................................................... 41
       Special Tax Matters ......................................................................................................... 44
       American Recovery and Reinvestment Act of 2009 ........................................................ 46

An Organization That Values Its People ....................................................................... 49

Congressional Testimony................................................................................................. 51

TIGTA’s International Programs ..................................................................................... 57

Audit Statistical Reports ................................................................................................... 59
        Reports with Questioned Costs ................................................................................... 59
        Reports with Recommendations that Funds be Put to Better Use ................................. 60
        Reports with Additional Quantifiable Impact on Tax Administration............................... 61

Investigations Statistical Reports ........................................................................... 63

Inspections and Evaluations Statistical Reports ........................................................ 65
        Report With Questioned Costs ...................................................................................... 65


                                                                                     October 1, 2013 – March 31, 2014                             5
              TIGTA SEMIANNUAL REPORT TO CONGRESS


Appendices

Appendix I – Statistical Reports – Other ....................................................................... 66
       Audit Reports With Significant Unimplemented Corrective Actions ............................... 66
       Other Statistical Reports ................................................................................................ 73
       Inspection Reports With Significant Unimplemented Corrective Actions ....................... 74

Appendix II – Audit Products ........................................................................................... 77

Appendix III – TIGTA’s Statutory Reporting Requirements ...................................... 79

Appendix IV – Section 1203 Standards ......................................................................... 84

Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street
    Reform and Consumer Protection Act ................................................................ 85

Appendix VI – Data Tables Provided by the Internal Revenue Service ................. 86
       Data Tables Provided by the IRS ...................................................................................      86
       Reports of Employee Misconduct, Summary by Disposition Groups .............................                              87
       Reports of Employee Misconduct, National Summary ...................................................                     89
       Summary of Substantiated Internal Revenue Code § 1203 Allegations
         Recorded in Automated Labor and Employee Relations Tracking System………….                                                90

Glossary of Acronyms ....................................................................................................... 91




6            October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



            TIGTA’s Profile


T         he Treasury Inspector General for
          Tax Administration (TIGTA)
          provides independent oversight of
          the Department of the Treasury’s
matters involving Internal Revenue Service
(IRS) activities, the IRS Oversight Board,
                                                          Statutory Mandate

                                                        Protect against external
                                                         attempts to corrupt or
and the IRS Office of Chief Counsel.                     threaten IRS employees.
Although TIGTA is placed organizationally               Provide policy direction and
within the Department of the Treasury and                conduct, supervise, and
reports to the Secretary of the Treasury and to          coordinate audits and
Congress, it functions independently from all            investigations related to IRS
other offices and bureaus within the                     programs and operations.
Department.                                             Review existing and
                                                         proposed legislation and
TIGTA oversees all aspects of activity related           regulations related to IRS
to the Federal tax system as administered by             programs and operations,
the IRS. TIGTA protects the public’s                     and make recommendations
confidence in the tax system by identifying              concerning the impact of
and addressing the IRS’s management                      such legislation or
                                                         regulations.
challenges and implementing the priorities of
the Department of the Treasury.                         Promote economy and
                                                         efficiency in the
TIGTA’s organizational structure is comprised            administration of tax laws.
of the Office of the Inspector General and six          Prevent and detect waste,
functional offices: the Office of                        fraud, and abuse in IRS
Investigations; the Office of Audit; the Office          programs and operations.
of Inspections and Evaluations; the Office of           Inform the Secretary of the
Mission Support; the Office of Information               Treasury and Congress of
Technology; and the Office of Chief Counsel              problems and deficiencies
(See chart on page 8).                                   identified and of the
                                                         progress made in resolving
TIGTA provides audit, investigative, and                 them.
inspection and evaluation services that
promote economy, efficiency, and integrity in
the administration of the Internal Revenue
laws.




                                                  October 1, 2013 – March 31, 2014       7
                 TIGTA SEMIANNUAL REPORT TO CONGRESS



                           Organizational Structure

                                              Inspector General

                                               Principal Deputy
                                              Inspector General




                                           Deputy
    Deputy              Deputy            Inspector           Associate              Chief              Chief
   Inspector           Inspector         General for           Inspector          Information          Counsel
  General for         General for        Inspections          General for            Officer
Investigations           Audit               and                Mission
                                         Evaluations            Support




                                           Authorities
   TIGTA derives its authority from the Inspector General Act of 1978, as amended.1 TIGTA
   has access to tax returns and return information in the performance of its tax
   administration responsibilities. TIGTA must also report potential Federal criminal
   violations directly to the U.S. Attorney General. TIGTA and the Commissioner of the IRS
   have established policies and procedures delineating responsibilities to investigate
   potential criminal offenses under Internal Revenue laws. In addition, the Internal
   Revenue Service Restructuring and Reform Act of 1998 (RRA 98)2 amended the
   Inspector General Act of 1978 to give TIGTA the statutory authority to carry firearms,
   execute and serve search and arrest warrants, serve subpoenas and summonses, and
   make arrests as set forth in Internal Revenue Code (I.R.C.) § 7608(b)(2).




   1
   2
    5 U.S.C. app. 3 (amended 2008).
    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
   16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
   8         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS



                               TIGTA’s Highlights
Examples of High-Profile Cases by the Office of
Investigations:
Former IRS Employee Sentenced in Identity Theft Scheme

On January 23, 2014, in the Eastern District of Kentucky, former IRS employee Joy Fox
was sentenced for her role in an identity theft scheme.3 Fox pled guilty on September 12,
20134 to aiding and abetting aggravated identity theft and aiding and abetting mail fraud.
According to court documents, on dates between January 2013 and March 2013, Fox and
a coconspirator, Patrick Sharpe, carried out a scheme to defraud and obtain money by
means of false pretense.5 Sharpe pled guilty on October 3, 2013.6

Fox was employed as a financial technician with the IRS in Florence, Kentucky. As part
of her duties, Fox had access to an IRS computer system which maintains taxpayer
information, including names, Social Security Numbers (SSN), and dates of birth. Fox’s
authorized access to the IRS system was limited to official business only.7 As part of the
scheme, Fox agreed to access the IRS computer system without authority, obtain the
identifying information of numerous taxpayers, and provide the information to Sharpe.
Sharpe requested that Fox provide identifying information on individuals 65 years of age
or older who were entitled to receive Social Security benefits. His plan was to apply
online for AccountNow® debit cards using the stolen identities and fund the cards with the
individuals’ Social Security benefits.8

In addition to fraudulently obtaining debit cards, Fox and Sharpe agreed to defraud the
IRS by submitting a false tax return in the name of an individual whose identity Fox
unlawfully obtained. Fox and Sharpe had agreed to share the refund if they were
successful.9 Fox was sentenced to 28 months in prison, to begin on February 24, 2014,
followed by one year of supervised probation.10

California Man Sentenced in Connection With Identity Theft Tax Scheme

On January 22, 2014, in the Central District of California, Jerry Gregoire, Jr. was
sentenced for making false claims against the United States and theft of Government



3
4
  E.D. Ky. Judgment filed Jan. 23, 2014.
5
  E.D. Ky. Plea Agreement for Joy Fox filed Sep. 12, 2013.
6
  E.D. Ky. Indictment filed July 18, 2013.
7
  E.D. Ky. Plea Agreement for Patrick Sharpe filed Oct. 3, 2013.
8
  E.D. Ky. Plea Agreement for Joy Fox filed Sep. 12, 2013.
9
  Id.
10
  Id.
   E.D. Ky. Judgment filed Jan. 23, 2014.
                                                              October 1, 2013 – March 31, 2014   9
            TIGTA SEMIANNUAL REPORT TO CONGRESS


funds.11 Gregoire was found guilty by a jury on 13 counts of the October 1, 2013
substitute indictment.12

According to court documents, as part of a stolen identity refund scheme, Gregoire
submitted tax returns to the IRS using the true names and SSNs of other individuals
without their knowledge or consent. The returns included false income, expenses, and
deductions, thus inducing refunds to be issued. The refunds were directed to bank
accounts that Gregoire controlled.13

When Gregoire attempted to cash refund checks in the names of three victims, Money
Mart (a check cashing business) notified TIGTA. Gregoire had claimed the individuals’
names on the checks were actually names of his businesses and his new clothing lines.
He provided fabricated business documents and IRS Forms SS-4, purporting that the IRS
had issued Employer Identification Numbers (EIN) in these business names. 14

The investigation of Gregoire was conducted jointly by agents from IRS Criminal
Investigation and TIGTA. A search warrant at Gregoire’s residence identified multiple
fraudulent documents in the name of one of the victims, including a false IRS Form SS-4
and a fabricated Form W-2, along with a document containing the real name, SSN, date
of birth, and occupation of the victim.15

Gregoire was sentenced to a total of 65 months of incarceration and ordered to make
restitution in the amount of $140,205 to the victim, the IRS.16 He is appealing his
conviction.17

Individual Indicted for Threatening IRS Employee and Family Member

On January 15, 2014, Andrew Calcione was indicted in the District of Rhode Island on
two counts of retaliating against a Federal official by threatening or injuring a family
member.18 According to court documents, Calcione knowingly and intentionally
threatened to assault and murder an IRS Revenue Agent, as well as the Revenue Agent’s
immediate family member. Calcione made such threats with the intent to impede,
intimidate, and interfere with the official duties of the IRS employee, and to retaliate
against the employee on account of the employee’s performance of official IRS
business.19




11
12
   C.D. Cal. Judgment filed Jan. 22, 2014.
13
   C.D. Cal. Verdict filed Oct. 4, 2013; C.D. Cal. Substitute Indict. filed Oct. 1, 2013.
14
   C.D. Cal. First Superseding Indict. filed May 8, 2013.
15
   C.D. Cal. Crim. Compl. filed April 16, 2013.
16
   Id.
17
   C.D. Cal. Judgment filed Jan. 22, 2014.
18
   C.D. Cal. Notice of Appeal filed Jan. 22, 2014.
19
   D. R.I. Indictment filed Jan. 15, 2014.
   Id.
10         October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


Examples of High-Profile Reports by the Office of
Audit:
Significant Discrepancies Exist Between Alimony Deductions Claimed by
Payers and Income Reported by Recipients

The IRS has not developed processes to address the majority of discrepancies
between deductions claimed and income reported for alimony. Our analysis of
567,887 Tax Year (TY) 2010 returns with an alimony deduction claim identified
266,190 (47 percent) tax returns in which it appears that individuals claimed alimony
deductions for which income was not reported on a corresponding recipient’s tax
return, or in which the amount of alimony income reported did not agree with the
amount of the deduction taken. There is a discrepancy of more than $2.3 billion in
deductions claimed versus corresponding income reported.

Apart from examining a small number of tax returns, the IRS generally has no
processes or procedures to address this substantial compliance gap.

IRS processes also do not ensure that individuals provide a valid recipient Taxpayer
Identification Number (TIN) when claiming an alimony deduction, as required by the
I.R.C. TIGTA’s analysis of the 567,887 TY 2010 returns that claimed an alimony
deduction identified an estimated 6,500 tax returns for which the IRS failed to identify
that the recipient TIN was missing or invalid. In addition, because of errors in IRS
processing instructions, the IRS did not assess penalties totaling $324,900 on
individuals who did not provide a valid recipient TIN as required.

TIGTA recommended that the IRS:

        Evaluate current examination filters in order to ensure that potentially high-
         risk tax returns are not inappropriately excluded from examination;
        Develop a strategy to address the significant alimony compliance gap;
        Revise processes and procedures to verify that all tax returns include a valid
         recipient TIN when claiming an alimony deduction; and
        Correct errors in IRS processing instructions to ensure that the penalty is
         accurately assessed on all tax returns in which a valid recipient TIN is not
         provided.

IRS management agreed with these recommendations and stated that it plans to take
corrective actions.

Reference No. 2014-40-022




                                                     October 1, 2013 – March 31, 2014      11
            TIGTA SEMIANNUAL REPORT TO CONGRESS


     The IRS Awards Program Complied With Federal Regulations, but Some
     Employees With Conduct Issues Received Awards

     The IRS Awards Program complied with Federal requirements to limit awards
     expenditures and saved additional funds by keeping aggregate incentive payments,
     individual employee compensation, and aggregate awards below the Federal limits.
     According to the IRS, it took further actions in Fiscal Year (FY) 2013 to limit awards to
     the extent allowable by law.

     However, between October 1, 2010 and December 31, 2012, more than 2,800
     employees with recent substantiated conduct issues resulting in disciplinary action
     received more than $2.8 million in monetary awards, more than 27,000 hours in time-
     off awards, and 175 quality step increases. Among these, more than 1,100 IRS
     employees with substantiated Federal tax compliance problems received more than $1
     million in cash awards, more than 10,000 hours in time-off awards, and 69 quality step
     increases within one year after the IRS substantiated their tax compliance problem.

     With few exceptions, the IRS does not consider tax compliance or other misconduct
     when issuing performance awards or most other types of awards. Governmentwide
     policies do not provide guidance on providing awards to employees with conduct
     issues. RRA 98 does not specifically mention awards, but does make mandatory the
     removal of IRS employees who are found to have intentionally committed certain acts
     of misconduct, including willful failure to pay Federal taxes. Thus, while not specifically
     prohibited, providing awards to employees with conduct issues, especially those who
     fail to pay Federal taxes, appears to create a conflict with the IRS’s charge of ensuring
     the integrity of the system of tax administration.

     TIGTA recommended that the IRS determine the feasibility of implementing a policy
     requiring management to consider conduct issues resulting in disciplinary actions,
     especially the nonpayment of taxes, prior to awarding all types of performance and
     discretionary awards.

     The IRS agreed with TIGTA’s recommendation. The Human Capital Officer plans to
     conduct a feasibility study by June 30, 2014 for the implementation of a policy requiring
     management to consider conduct issues resulting in disciplinary actions prior to
     awarding all types of performance and discretionary awards.

     Reference No. 2014-10-007




12         October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



         Promote the Economy, Efficiency, and
          Effectiveness of Tax Administration

T
     IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and
     effectiveness of tax administration. TIGTA provides recommendations to improve
     IRS systems and operations and to ensure the fair and equitable treatment of
taxpayers. TIGTA’s comprehensive and independent performance and financial
audits of IRS programs and operations primarily address statutorily mandated reviews
and high-risk challenges faced by the IRS.

The IRS’s implementation of TIGTA audit recommendations results in:

        Cost savings;
        Increased or protected revenue;
        Protection of taxpayers’ rights and entitlements; and
        More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places its emphasis on statutory audits required by RRA 98
and other laws, as well as areas of concern to Congress, the Secretary of the Treasury,
the Commissioner of the IRS, and other key stakeholders.


  Audit Emphasis Areas for October 2013 through March 2014

            Security for Taxpayer Data and Employees
            Tax Compliance Initiatives
            Implementing the Affordable Care Act and Other Tax Law Changes
            Fraudulent Claims and Improper Payments
            Achieving Program Efficiencies and Cost Savings




The following summaries highlight significant audits completed in each area of emphasis
during this six-month reporting period:

Security for Taxpayer Data and Employees

The IRS faces the daunting task of securing its computer systems against the growing
threat of cyberattacks. Effective information systems security is essential to ensure that
data are protected against inadvertent or deliberate misuse, improper disclosure, or


                                                     October 1, 2013 – March 31, 2014        13
          TIGTA SEMIANNUAL REPORT TO CONGRESS


destruction, and that computer operations supporting tax administration are protected
against disruption or compromise.

Planning Is Underway for the Enterprise-Wide Transition to Internet Protocol
Version 6, but Further Actions Are Needed

The IRS established a project team to manage its network conversion from the current
version, Internet Protocol version 4 (IPv4), to the next generation, Internet Protocol
version 6 (IPv6), which has greater address space. The project team has adequately
planned for security risks during the conversion, but has not completed some
elements of the transition plan. For example, the IRS has not established an IPv6
Advisory Board or prepared a resource plan to ensure proper guidance and
coordination within and outside of the agency on its IPv6 efforts.

Also, the Procurement function did not establish controls to ensure that all new
information technology purchases were IPv6 capable in accordance with the Federal
Acquisition Regulation. Lastly, TIGTA found that the project team received
inadequate oversight from the Infrastructure Executive Steering Committee and did
not adhere to the IRS’s Enterprise Life Cycle policy. Given the geographic dispersion
of the IRS network, and its size and complexity, the enterprise-wide network
conversion will have a far-reaching impact on many IRS functions.

TIGTA recommended that the IRS:

        Direct the project team to establish an advisory board;
        Develop an Information Resources Management Strategic Plan;
        Coordinate with the IRS Enterprise Life Cycle Office to better manage project
         documentation and schedules;
        Update the IRS Procurement Office policy to align with the Federal
         Acquisition Regulation;
        Establish a control to prevent the purchase of IPv6 incapable products;
        Coordinate with IRS business units to ensure that complete responses to the
         project team’s applications data call are received, so that they can begin
         extensive planning for each application that will require upgrading;
        Assess the merits of transferring project oversight to another governance
         board that regularly monitors and provides oversight of information
         technology projects; and
        Direct the Infrastructure Executive Steering Committee to update its charter in
         order to properly reflect the current roles and responsibilities of the
         committee.

The IRS agreed with our recommendations to develop an Information Resources
Management Strategic Plan, better manage IPv6 project documentation, update the
Infrastructure Executive Steering Committee charter, and coordinate between offices
to achieve procurement policy alignment with Federal regulations and an exchange of

14       October 1, 2013 – March 31, 2014
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


information necessary for a successful transition to IPv6. The IRS updated the IPv6
Transition Plan so that existing oversight groups fulfill the purpose of an advisory
board. IRS management prefers to continue with its current governance board
structure for this project since it provides oversight for the entire Information
Technology infrastructure portfolio.

Reference No. 2014-20-016

Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, the collection
of the correct amount of tax from businesses and individuals, and the oversight of
tax-exempt and government entities. Increasing voluntary taxpayer compliance and
reducing the Tax Gap20 remain the focus of many IRS initiatives. Although the IRS
reported that the Tax Gap is caused by both unintentional taxpayer errors and willful
tax evasion or cheating, it does not have sufficient data to differentiate the amounts
attributable to each. The IRS also reported that a meaningful improvement in the
voluntary compliance rate requires a long-term, focused effort involving taxpayer
service, modernization, and enforcement.

Millions of Dollars in Potentially Improper Self-Employed Retirement Plan
Deductions Are Allowed

TIGTA sought to determine whether the IRS’s controls and third-party data are adequate
to identify improper deductions for contributions made by self-employed taxpayers to their
own Simplified Employee Pension (SEP) planned retirement account. An SEP is a
retirement plan that allows self-employed taxpayers to make contributions toward their
own and their employees’ retirement without getting involved in a more complex qualified
plan. Improper deductions could be verified using information provided by taxpayers
when individual tax returns are filed. If the IRS improves controls, it could prevent
improper deductions and potentially protect $71 million in revenue over five years.

In addition, TIGTA found that the IRS could better use third-party data to detect potentially
improper SEP deductions. For example, to be able to claim an SEP deduction on line 28
of Form 1040, self-employed taxpayers must show net earnings on a self-employed
business. If the IRS improves controls, it could detect improper deductions and
potentially realize $29 million in revenue over five years.

TIGTA recommended that the IRS enhance controls to prevent and detect improper
claims and assess the need for additional third-party data to verify deductions.

In its response, IRS management disagreed with TIGTA’s conclusion that controls are not
in place to detect improper self-employed retirement plan deductions, but agreed that
certain actions can be taken to improve existing processes.
20
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.
                                                          October 1, 2013 – March 31, 2014           15
          TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA does not believe that the IRS’s corrective actions are sufficient. This audit
identified millions of dollars in potentially improper or fraudulent claims, and TIGTA
continues to believe that the IRS should consider additional controls to prevent or detect
potentially improper retirement plan deductions.

Reference No. 2014-10-008
Millions of Dollars in Potentially Improper Claims for the Qualified Retirement
Savings Contributions Credit Are Not Pursued

Since TY 2002, the Federal Government has provided a Qualified Retirement Savings
Contributions Credit (saver’s credit) to reduce income taxes of certain low-to-moderate-
income workers who contribute to a qualified retirement plan. The IRS has developed
and implemented controls for submission processing of tax returns that generally prevent
a taxpayer from receiving the saver’s credit if the taxpayer is under 18 years of age, has
an income level that exceeds eligibility limits, or is claiming a credit that exceeds the
statutory limit. However, sufficient information is not always available to verify other
eligibility requirements during submission processing, including whether a taxpayer is a
full-time student.

While the IRS has implemented sufficient controls for submission processing, TIGTA
determined that the IRS has not effectively used third-party data that it receives after tax
returns are filed to detect taxpayers who should not have received the saver’s credit. For
TY 2011, TIGTA determined that taxpayers potentially submitted approximately $53
million in improper claims for contributions made to a qualifying retirement account.
Based on a comparison with third-party data, these claims appear to be potentially either
false or overstated. In the future, if the IRS identifies and addresses taxpayers who are
potentially ineligible to receive the saver’s credit, it could recover approximately
$264 million over five years.

TIGTA recommended that the IRS develop a cost-effective strategy for improving
compliance with requirements for claiming the saver’s credit.

In their response to the report, IRS officials agreed that improvements could be made to
increase compliance with saver’s credit requirements. However, IRS officials did not
agree with the recommendation because they do not believe that there are cost-effective
compliance alternatives available.

Given the significant number of taxpayers identified as claiming potentially improper
saver’s credits, as well as the potential for continued noncompliance in the future, TIGTA
continues to believe that the IRS should follow through with this recommendation.

Reference No. 2014-10-017




16       October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


Implementing the Affordable Care Act and Other Tax Law Changes
Each filing season tests the IRS’s ability to implement tax law changes made by
Congress, because the IRS must often act quickly to assess the changes and
determine the necessary actions to:

         Ensure that all legislated requirements are satisfied;
         Create new or revise existing tax forms, instructions, and publications;
         Revise internal operating procedures; and
         Reprogram major computer systems used for processing tax returns.

 The Affordable Care Act21 (ACA) contains an extensive array of tax law changes that
 will present a continuing source of challenge for the IRS in the coming years. While
 the Department of Health and Human Services (HHS) will have the lead role in
 managing the policy provisions of the ACA, the IRS will administer the law’s
 numerous tax provisions. The IRS estimates that at least 42 provisions will either
 add to or amend the tax code, and that at least eight provisions will require the IRS to
 build new processes that do not exist within the current system of tax administration.

Affordable Care Act: The Customer Service Strategy Sufficiently Addresses Tax
Provisions; However, Changes in Implementation Will Create Challenges

The IRS’s customer service strategy is a collaborative and coordinated effort between
the IRS and multiple Federal and State agencies. The strategy includes sufficient
plans to:

         Conduct outreach and education;
         Update or develop tax forms, instructions, and publications; and
         Provide employee training to assist individuals in understanding the
          requirement to maintain the minimum essential coverage22 and the tax
          implications of obtaining the tax credit to offset the cost of health care
          insurance.

In a May 2012 Memorandum of Understanding, the IRS and HHS agreed that HHS
would be the lead agency and serve as the “public face” for customer service at the
Marketplaces23 until Calendar Year (CY) 2015. Individuals who contact the IRS for

21
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code),
as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat.
1029.
22
   Provisions in the ACA require individuals either to have minimum essential coverage for each month
beginning January 2014, qualify for an exemption, or pay a penalty to the IRS when filing their Federal
income
23
         tax return. These provisions apply to individuals of all ages, including children.
   The ACA seeks to provide more Americans with access to affordable health care by creating new Health
Insurance Marketplaces (Marketplaces), enforcing patient/consumer protections, and providing Government
subsidies for people who cannot afford insurance. The Marketplaces simplify an applicant’s search for
health coverage by providing multiple options in one place and comparing plans based on price, benefits,
quality, and other important features that help consumers make a choice.
                                                             October 1, 2013 – March 31, 2014          17
          TIGTA SEMIANNUAL REPORT TO CONGRESS


ACA assistance will be referred to HHS’s public website (Healthcare.gov) and toll-free
telephone assistance lines. The IRS will also refer individuals to its own recorded
telephone messages and self-assistance tools.

In CY 2015, the IRS will take the lead in providing customer service when individuals
begin filing their 2014 tax returns and are required to include the amount of any
Advance Premium Tax Credit payments on their tax returns and reconcile them to the
allowable amounts. The IRS’s customer service will include providing face-to-face
assistance at its 390 Taxpayer Assistance Centers located throughout the United
States.

However, changes in ACA implementation will create challenges. Any changes made
to ACA tax provisions could affect the IRS’s strategy and plans to provide customer
service, outreach, education, and employee training. Changes to the provisions could
also affect the IRS’s plans to update its tax forms, instructions, and publications.

TIGTA did not make recommendations in this report. A draft of the report was
provided to IRS management for review. The IRS did not provide any comments on
the report.

Reference No. 2014-43-006

Interim Results of the 2014 Filing Season

As a result of the closure of the Government, the IRS delayed the start of the filing season
from January 21, 2014 to January 31, 2014. As of March 7, 2014, the IRS had received
more than 67.1 million tax returns – more than 62.2 million (92.6 percent) were filed
electronically and nearly five million (7.4 percent) were filed on paper. The IRS has
issued more than 55.4 million refunds totaling more than $164 billion.

The IRS continues to expand identity theft filters to identify fraudulent tax returns. As of
February 28, 2014, the IRS reports that it had identified and confirmed 28,076 fraudulent
tax returns involving identity theft. In addition, the IRS identified 57,316 tax returns with
$385 million claimed in fraudulent refunds and prevented the issuance of $336
million (87.3 percent) of the fraudulent refunds it identified. The IRS also identified
36,801 prisoner tax returns for screening.

The use of the split-refund option to direct deposit a refund into multiple bank accounts
continues to grow. Through March 6, 2014, a total of 585,331 individuals chose to split
refunds totaling more than $2.6 billion into multiple accounts. However, we continue to
find that some taxpayers and return preparers misuse this option to direct a portion of a
tax refund to a preparer for payment of services.




18       October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA also found that some paid tax return preparers continue to be noncompliant with
Earned Income Tax Credit (EITC) due diligence requirements, but the number has
decreased substantially when compared to the same period last filing season.
Finally, the IRS plans to assist 5.6 million taxpayers through face-to-face contact at the
Taxpayer Assistance Centers during FY 2014, which is one million fewer taxpayers than it
assisted during FY 2013. As of March 8, 2014, approximately 46.3 million taxpayers had
contacted the IRS by calling one of the various toll-free Customer Account Services lines.
The IRS continues to offer more self-assistance options that taxpayers can access 24
hours a day, seven days a week, including its IRS2Go app; YouTube channels;
interactive self-help tools on IRS.gov; and Twitter, Tumblr, and Facebook accounts.
However, the IRS did not always ensure that the self-help tools were updated with the
most current tax information before the start of the filing season.
This report was prepared to provide interim information only. Therefore, no
recommendations were made in the report.

Reference No. 2014-40-029

Fraudulent Claims and Improper Payments
Improper payments include those payments that should not have been made or those
that were made in an incorrect amount (both overpayments and underpayments)
under statutory, contractual, administrative, or other legally applicable requirements.
Erroneous and improper payments issued by the IRS generally involve improperly
paid refunds, tax return filing fraud, or improper payments to vendors or contractors.

Processes for Ensuring Compliance With Qualifying Advanced Energy Project
Credit Requirements Can Be Strengthened

The American Recovery and Reinvestment Act of 2009 established the Qualifying
Advanced Energy Project Credit (Advanced Energy Credit) to encourage development
of a manufacturing base to support renewable energy industries. Manufacturers must
meet specific requirements to claim the credit on their income tax returns.

The I.R.C. identifies requirements for verification of manufacturers’ compliance, such
as, description of the plan, proof of conformity (e.g., construction permits), and project
readiness. For those projects that did not meet the agreement and/or certification
requirements, the IRS appropriately considered the credits that had been allocated to
the projects as forfeited, issued the manufacturers forfeit letters, and accounted for the
$150 million in Advanced Energy Credits allocated to these projects. However, TIGTA
found that the IRS did not consistently evaluate project location changes to determine
if the change should result in credit forfeiture. Further, although the IRS has
processes to ensure manufacturer compliance with agreement, certification, and
placed-in-service requirements, similar processes were not established to verify
compliance with the provision to notify the IRS of significant changes in project plans.

                                                      October 1, 2013 – March 31, 2014       19
          TIGTA SEMIANNUAL REPORT TO CONGRESS


Finally, while the IRS developed a Compliance Initiative Project that identifies
business taxpayers erroneously claiming the credit, it does not have a similar process
to identify individual taxpayers erroneously claiming the credit. Our review identified
1,149 individual taxpayers who electronically filed Forms 1040, collectively reporting
more than $3 million in Advanced Energy Credits for TY 2011, but who do not appear
to have a business relationship with any manufacturer that was awarded the credit.

TIGTA recommended that the IRS:

        Develop processes to ensure that changes in projects are fully evaluated and
         all projects are placed into service at the locations specified in the
         manufacturer’s agreement; and
        Create a process to verify that taxpayers who claim the Advanced Energy
         Credit are entitled to receive it.

IRS management agreed with these recommendations and stated that it plans to take
corrective actions.

Reference No. 2014-40-011

Achieving Program Efficiencies and Cost Savings
Given the current economic environment and the increased focus by the
Administration, Congress, and the American people on Government accountability
and the efficient use of resources, the American people must be able to trust that their
Government is taking action to stop wasteful practices and to spend every tax dollar
wisely. While the IRS has made progress in using its data to improve program
effectiveness and reduce costs, this area continues to be a major challenge.

The IRS Should Improve Mainframe Software Asset Management and Reduce
Costs

The IRS runs approximately 200 different software products in its mainframe
environment. A critical part of software asset management is mainframe software
license management. The objective of mainframe software license management is to
manage, control, and protect an organization’s software assets, including
management of the risks that arise from the use of those software assets. The IRS is
not adequately performing mainframe software license management and is not
adhering to Federal requirements and recommended industry best practices. The IRS
does not have enterprise-wide or local policies, procedures, and requirements for
mainframe software license management, nor does it have a centralized, enterprise-
wide organizational structure for managing mainframe software licenses.

The IRS also does not use asset discovery, network scanning, license management,
or license metering tools to identify current usage, deployment, and inventory of

20       October 1, 2013 – March 31, 2014
                  TIGTA SEMIANNUAL REPORT TO CONGRESS


mainframe software and related licenses. This inadequate software license
management has resulted in an estimated waste of $11.6 million and overutilization of
$1.5 million in license and software subscription support fees.

TIGTA recommended that the IRS:

      Develop policies and guidance to manage mainframe software assets and
       licenses;
      Create an enterprise-wide organizational structure to manage software assets
       and licenses;
      Develop detailed standard operating procedures for using mainframe licensing
       tools to manage software licenses;
      Implement a specialized mainframe software license tool(s) designed to
       deliver, track, and manage mainframe software license deployment and usage;
      Establish an enterprise-wide inventory of mainframe software licensing data
       and maintain the inventory with a specialized mainframe software license tool;
      Maintain data in the inventory system that the IRS can use to more effectively
       manage mainframe software spending; and
      Develop roles and responsibilities for all organizational entities responsible for
       mainframe software asset and license management.

In its response to the report, IRS management agreed with all seven
recommendations, with slight modifications to three of them.

Reference No. 2014-20-002




                                                     October 1, 2013 – March 31, 2014       21
     TIGTA SEMIANNUAL REPORT TO CONGRESS




                              Divider Page




22   October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



   Protect the Integrity of Tax Administration


 T
         IGTA is statutorily mandated to protect the integrity of Federal tax administration.
         TIGTA accomplishes its mission through the investigative work conducted by the
         Office of Investigations (OI). Through its investigative programs, OI protects the
         integrity of the IRS and its ability to collect revenue owed to the Federal
Government by investigating violations of criminal and civil law that adversely impact
Federal tax administration as well as administrative misconduct by IRS employees, all of
which undermines the integrity of the Nation’s voluntary tax system.

The Performance Model
OI accomplishes its mission objectives through the hard work of its employees and a
performance model that focuses on OI’s three primary areas of investigative
responsibility:

        Employee integrity;
        Employee and infrastructure security; and
        External attempts to corrupt tax administration.

OI has adopted performance measures intended to identify the percentage of results
derived from investigative activities which most accurately align with the strategic goals of
the organization and which provide the greatest impact on the protection of the integrity of
Federal tax administration.

Employee misconduct undermines the IRS’s ability to deliver taxpayer service, to enforce
tax laws effectively, and to collect taxes owed to the Federal Government. External
threats against the IRS impede its ability to fairly and efficiently carry out its role as the
Nation’s revenue collector. Individuals who attempt to corrupt or otherwise interfere with
tax administration impact the IRS's ability to collect revenue.

TIGTA investigates these serious offenses and refers its investigations to the Department
of Justice for prosecution when warranted.

Performance Area: Employee Integrity
Taxpayers must have confidence in the fair and impartial administration of the Federal tax
system. IRS employee misconduct, whether real or perceived, can erode the public’s
trust and impede the IRS’s ability to effectively enforce tax laws. Employee misconduct
can take many forms, such as the misuse of IRS resources or authority, theft, fraud,




                                                      October 1, 2013 – March 31, 2014      23
            TIGTA SEMIANNUAL REPORT TO CONGRESS


extortion, taxpayer abuses, unauthorized access to, and
disclosure of, tax return information, and identity theft.

During this reporting period, employee integrity
investigations accounted for 55 percent of OI’s work.
The following cases represent OI’s efforts to ensure
employee integrity during this six-month reporting
period:

IRS Employee Pleads Guilty to Hiding and Destroying Tax Returns

On February 10, 2014, in the Eastern District of Kentucky, IRS employee Brady James
pled guilty to one count of destruction of tax returns for estates and trusts.24 James was
indicted for the offense in May 2013.25 According to court documents, between April 2,
2013 and April 30, 2013, James, an IRS tax examining technician, knowingly concealed
and destroyed records and documents with the intent to impede the proper administration
of matters within the jurisdiction of the IRS. Specifically, James concealed over 800
Forms 1041, U.S. Income Tax Return for Estates and Trusts, which had been submitted
to the IRS in Covington, Kentucky for processing.26

On April 23, 2013, approximately 383 Forms 1041 were found discarded in the men’s
restroom at the IRS Service Center. This prompted the IRS Code and Edit Manager to
conduct an unannounced search of all the employees’ desks. When the search began,
James grabbed a personal bag from his work area. The bag ripped and numerous
original, unprocessed Forms 1041 fell onto the ground. The forms had been stamped as
received by the IRS five to six days earlier, but had not been processed.27

James admitted that he initially devised a system to withhold numerous documents
temporarily until he could re-introduce them (unprocessed) into the completed work area.
James later admitted he had been destroying numerous Forms 1041 nightly for several
weeks by discarding them in multiple recycling bins in the work area or taking them home,
where he would dump them in his apartment complex trash compactor. He indicated he
had done so because he was struggling to maintain his required production. 28

Searches of James’s personal possessions at work, several IRS recycling bins and trash
containers near his work area, James’s home, and his apartment complex dumpster,
identified a total of approximately 842 unprocessed tax returns that had been discarded.29

James could face up to 20 years of imprisonment and a fine up to $250,000.30


24
25
   E.D. Ky. Plea Agr. filed Feb. 10, 2014.
26
   E.D. Ky. Indict. filed May 9, 2013.
27
   Id.
28
   E.D. Ky. Plea Agr. filed Feb. 10, 2014.
29
   Id.
30
   Id.
   Id.
24         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


IRS Employee Sentenced for Structuring Drug Proceeds

On October 15, 2013, in the Eastern District of California, Catatea James was sentenced
for aiding and abetting in the structuring of funds.31 James pled guilty to the offense on
July 16, 2013.32 According to court documents, James knowingly and intentionally aided
and abetted in the structuring of approximately $113,088 in drug proceeds at the direction
of her half-brother and co-defendant, Joseph Gable. James allowed Gable to deposit and
withdraw structured funds through her bank account, even though she suspected the
money represented drug proceeds. On one occasion, James provided her bank account
number to one of Gable’s drug customers in Alabama via text message.33 Gable would
send James a text with the amount of funds he wanted withdrawn and James would give
the money to him.34 James made a number of cash withdrawals from her Bank of
America account in amounts of $10,000 or less35 for the purpose of evading the reporting
requirements for cash transactions.36 James was sentenced to five months of
imprisonment and three years of supervised release, including five months of electronic
monitoring.37

Former IRS Employee Ordered to Pay Restitution for Theft of National Treasury
Employees Union Funds

On October 2, 2013, in the District of Utah, Northern Division, Sheila Brown was ordered
to pay $24,582 in restitution to Chapter 67 of the National Treasury Employees Union
(NTEU).38 Brown was indicted for theft from a program receiving Federal funds in
January 2013.39 She pled guilty and was sentenced for the offense in June 2013.40

According to court documents, from approximately June 2005 until April 2010, Brown
served as the Treasurer for NTEU Chapter 67 (NTEU-67). Brown was employed by the
IRS in Ogden, Utah at all times relative to the charges. NTEU-67 is an independent
Federal sector union representing employees of the Treasury Department, and receives
Federal funding and subsidies from the IRS. IRS employees complete NTEU-67 duties
while on official IRS work time and are paid with IRS funds.41

Brown’s responsibilities as the Treasurer for NTEU-67 included overseeing union dues
and funds, balancing accounts, submitting and writing checks, and paying for authorized
travel, all on behalf of NTEU-67. By virtue of her position as Treasurer, Brown had


31
32
   E.D. Cal. Judgment filed Oct. 24, 2013.
33
   E.D. Cal. Plea Agr. filed July 16, 2013.
34
   Id.
35
   Id.
36
   Id.
37
   E.D. Cal. Superseding Info. filed July 22, 2013.
38
   E.D. Cal. Judgment filed Oct. 24, 2013.
39
   D. Utah Stipulated Motion to Amend Judgment for Order of Restitution filed Oct. 2, 2013.
40
   D. Utah Indict. filed Jan. 9, 2013.
   D. Utah Statement by Defendant in Advance of Guilty Plea filed June 24, 2013; D. Utah Judgment filed
41
  June  27, 2013.
   D. Utah Indict. filed Jan. 9, 2013.
                                                             October 1, 2013 – March 31, 2014             25
            TIGTA SEMIANNUAL REPORT TO CONGRESS


access to two NTEU bank accounts that were to be used solely for NTEU expenses and
purposes. Brown embezzled money from NTEU-67 by using its banking accounts, as
well as check and debit cards she obtained from the NTEU-67 accounts, for her personal
use and benefit. From approximately January 2009 through April 2010, Brown made
unauthorized cash withdrawals from the accounts, issued unauthorized checks, and
made personal purchases with debit cards.42 In addition to the $24,582 in restitution,43
Brown was sentenced to 12 months of probation and ordered to participate in a mental
health treatment program.44


     Spotlight on Integrity
     The Federal tax system is based on voluntary compliance and, as such, it is critical
     that taxpayers have confidence not only in the security of the sensitive personal and
     financial information furnished to the IRS, but also in the integrity of the IRS
     employees who access, use, and review the information for tax administration
     purposes.


Identity Theft and the Insider Threat

It is particularly troubling when IRS employees, who are entrusted with the sensitive
personal and financial information of millions of taxpayers, misuse their positions in
furtherance of identity theft and other fraud schemes. This breach of trust negatively
impacts our Nation’s voluntary tax system and erodes confidence in the IRS. TIGTA
proactively reviews the activities of IRS employees who access taxpayer accounts for any
indication of unauthorized accesses that may be part of a larger fraud scheme. The
following cases represent OI’s efforts to investigate identity theft committed by IRS
employees during this six-month reporting period:

IRS Data Entry Clerk Pleads Guilty to Filing False Tax Returns Using Stolen
Identities and Falsified IRS Documents

On January 21, 2014,45 in the Eastern District of California, IRS employee Monica
Hernandez pled guilty to making and subscribing a false income tax return, wire fraud,
and aggravated identity theft.46 Hernandez was indicted for the offenses in April 2011.47

According to court documents, at all times relevant to the offenses, Hernandez was
employed as a part-time data entry clerk at the IRS Fresno Service Center in Fresno,
California. As part of her duties, Hernandez regularly handled and processed tax returns
on behalf of the IRS by entering taxpayers’ tax information into the IRS computer system.

42
43
   D. Utah Indict. filed Jan. 9, 2013.
44
   D. Utah Stipulated Motion to Amend Judgment for Order of Restitution filed Oct. 2, 2013.
45
   D. Utah Judgment filed June 27, 2013.
46
   E.D. Cal. Crim. Docket filed Apr. 14, 2011.
47
   E.D. Cal. Plea Agr. filed Jan. 3, 2014.
   E.D. Cal. Indict. filed Apr. 14, 2011.
26         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


During the course of her IRS employment, Hernandez stole tax information in order to file
fraudulent tax returns and claim large tax refunds.

Specifically, Hernandez stole taxpayers’ Forms 1099-B, which list income received and
moneys withheld from interest and dividend earnings. Hernandez then falsified and
forged the Forms 1099 to reflect her personal information and filed her own tax returns
claiming the information from the forged 1099s in the form of excessive withholdings.48
Between 2007 and 2009, Hernandez filed three false tax returns for herself using this
method and obtained refunds from the IRS in the amount of $175,144.49

Starting on or around February 2010, Hernandez began to file a new series of fraudulent
tax returns, falsely claiming excessive withholdings. However, this time she used
personal information belonging to individuals other than herself to obtain the large
refunds. Hernandez initially acquired the identifying information of some of these
individuals, including deceased persons, from sites on the Internet. She also used the
identity of a relative to file one false return and subsequently opened a bank account in
the relative’s name in order to deposit the fraudulently obtained refund check.50

In continuance of her scheme, Hernandez illegally acquired and removed 68 separate tax
returns from the IRS Service Center in Fresno, California. These returns had been
received by the IRS, but had not yet been entered into the IRS computer system. The
stolen tax returns contained the names, SSNs, addresses, and other pertinent data
associated with the taxpayers. Hernandez then proceeded to file fraudulent tax returns
electronically for her own benefit using the identification of some of these taxpayers, and
claimed excessive withholdings from dividends and interest income in order to increase
the amount of the refunds. Hernandez filed approximately 10 tax returns in which she
attempted to claim refunds totaling $1,745,013.51

As part of the plea agreement, Hernandez agreed to pay restitution to the United States in
the amount of approximately $200,000, plus restitution to all of the affected victims in an
amount to be determined by the court at sentencing.52 She could face up to 20 years of
imprisonment.53

IRS Employee Orchestrated Identity Theft Refund Scheme Using Taxpayer Records

On December 10, 2013, in the Northern District of Georgia, IRS Tax Examining
Technician Missy Sledge was indicted for aggravated identity theft and mail fraud.54
According to court documents, as part of her official IRS duties Sledge had access to
taxpayers’ personal identifiers, including names, SSNs, dates of birth, and addresses,
and information about tax professionals. Sledge used this access in furtherance of an
48
49
   E.D. Cal. Plea Agr. filed Jan. 3, 2014.
50
   E.D. Cal. Indict. filed Apr. 14, 2011.
51
   E.D. Cal. Plea Agr. filed Jan. 3, 2014.
52
   Id.
53
   Id.
54
   Id.
   N.D. Ga. Indictment filed Dec. 10, 2013; N.D. Ga. Criminal Complaint filed Nov. 25, 2013.
                                                              October 1, 2013 – March 31, 2014   27
           TIGTA SEMIANNUAL REPORT TO CONGRESS


identity theft scheme which included the filing of fraudulent tax returns and the
subsequent theft of refunds.55 With information from IRS computer systems, Sledge
provided taxpayers’ personal information to her coconspirators.56

It was part of the scheme that others would file fraudulent tax returns with the IRS using
the stolen identities of various taxpayers. Sledge used her IRS computer to review the
fraudulent returns submitted to determine if she could release fraudulent tax refunds
based on those returns. When identified, Sledge would release the fraudulent refund for
payment. Sledge further assisted those involved in the scheme in impersonating either
the taxpayers or their authorized representatives, so the taxpayers’ addresses of record
could be changed to a fictitious address accessible to Sledge or others involved in the
scheme. Sledge then caused the IRS to mail refunds in the taxpayers’ names to the
fictitious address, to be intercepted or stolen.57

On May 21, 2013, an individual was arrested in Texas and was found to be in possession
of an IRS refund check in the amount of $595,901.97, along with three pages of internal
IRS documents containing tax information for one of the identity theft victims. A review of
IRS systems revealed Sledge made accesses to this taxpayer’s account, as well as to
information of the taxpayer’s accountant, on seven dates between February 2013 and
May 2013. The victim was due a large refund because she had overpaid her estimated
taxes. One of the perpetrators used the accountant’s information and Government-issued
representative number to impersonate the tax practitioner in a telephone communication
with the IRS on March 5, 2013, in order to change the address on record from a North
Carolina address to an address in Atlanta, Georgia. Sledge then released the
$595,901.97 refund to the fictitious address.58

On May 23, 2013, an e-mail was sent from Sledge’s IRS e-mail account containing the
personal information for two other taxpayers, a married couple. The e-mail included the
taxpayers’ names, SSNs, dates of birth, address, and tax preparer’s information. A
subsequent telephonic address change was made, changing the address of record from
the taxpayers’ Massachusetts address to a Georgia address, and a refund in the amount
of $961,779.33 was paid on or about May 31, 2013. Review of the IRS systems identified
accesses to the taxpayers’ accounts by Sledge on May 23, 2013 and again in June
2013.59

Multiple communications were identified to and from Sledge’s IRS e-mail account on
dates between May 2013 and September 2013, relaying taxpayer information and/or
internal IRS documents for up to as many as 56 taxpayers to Sledge’s coconspirators.
Text messages containing taxpayer information and discussing the theft of Government
funds were also identified. In one message she sent to an individual she was trying to
recruit as a coconspirator, Sledge told the recipient she had a business proposition for

55
56
   N.D. Ga. Indictment filed Dec. 10, 2013.
57
   N.D. Ga. Criminal Complaint filed Nov. 25, 2013.
58
   N.D. Ga. Indictment filed Dec. 10, 2013.
59
   N.D. Ga. Criminal Complaint filed Nov. 25, 2013.
   Id.
28         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


him and indicated that she had a plan to change the addresses so checks would come to
him. Sledge offered to split the scheme proceeds three or four ways, depending on the
number of people involved. Sledge said she would give him all the information needed to
get the address changed without any problems or questions and said, “All of this money is
just sitting here for the taking.”60 TIGTA special agents arrested Sledge in Chamblee,
Georgia on November 26, 2013.61 She entered a not-guilty plea at her arraignment, held
on December 19, 2013.62 Additional legal action is pending.

Former IRS Employee Indicted in Stolen Identity Refund Scheme

On October 2, 2013, in the Western District of Missouri, Central Division, Demetria Brown
was indicted for wire fraud and aggravated identity theft. According to the 22-count
indictment, Brown worked for the IRS in St. Louis, Missouri, at all times relevant to the
charges. From at least 2008 through March 2011, Brown knowingly devised a scheme to
defraud and obtain money from the IRS and the Missouri Department of Revenue
(MDOR) by means of materially fraudulent representations.63

Brown obtained the personal identifiers of individuals (including names, SSNs, and dates
of birth) without their consent or knowledge and completed U.S. individual tax returns and
Missouri State tax returns with the information. She also added other false information
such as addresses, places of employment, wages earned, taxes withheld, and refunds
due, to the returns.64 Using a false identity, Brown established an account with an
Internet service provider and an e-mail address in order to submit the false returns to the
IRS and the MDOR and generate fraudulent refunds. She opened nominee bank
accounts with at least six financial institutions in five different States. She used the
routing number, account number, and debit card number on the fraudulent returns to
direct payment or credit to accounts she controlled. Through her scheme, Brown
unlawfully acquired approximately $326,260 ($211,474 from the IRS and $114,786 from
the MDOR).65 Additional legal action is pending.

IRS Employee Arrested for Identity Theft, Theft of Government Funds, and False
Tax Returns

On February 11, 2014, in the Eastern District of Pennsylvania, a nine-count indictment
charged IRS employee Sherelle Pratt with filing false Federal income tax returns,
assisting in the preparation of false returns, theft of Government funds, and aggravated
identity theft.66

According to court documents, Pratt worked as an IRS contact representative beginning
in January 2008. After an individual reported Pratt had prepared a tax return for his son
60
61
   N.D. Ga. Criminal Complaint filed Nov. 25, 2013.
62
   N.D. Ga. Arrest Warrant Return filed Dec. 5, 2013.
63
   N.D. Ga. Docket filed Dec. 10, 2013.
64
   W.D. Mo. C.D. Indictment filed Oct. 2, 2013.
65
   Id.
66
   Id.
   E.D. Pa. Indict. filed Feb. 11, 2014.
                                                        October 1, 2013 – March 31, 2014    29
           TIGTA SEMIANNUAL REPORT TO CONGRESS


and the anticipated refund was not received, TIGTA discovered that Pratt had deposited
the taxpayer’s refund and stimulus checks into her personal bank account. Subsequent
investigation identified eight more individuals for whom Pratt had prepared tax returns and
then deposited their refund and/or stimulus checks into her personal checking account.67
Pratt also knowingly used the identification of another person in relation to the theft of
Government funds. Specifically, Pratt used the name and SSN of one individual, without
that individual’s knowledge or authorization, to file a fraudulent return, which resulted in a
tax refund check in the amount of $3,524. Pratt had the illegally obtained refund
electronically deposited into her own personal checking account. Moreover, for TYs
2007, 2008, and 2009, Pratt failed to report approximately $28,767 in stolen funds as
income.68

Furthermore, Pratt knowingly and willfully assisted in the preparation and filing of tax
returns, which she knew to be false, for others,. The returns included information such as
false dependent care expenses, Schedule C income from a business not owned by the
return filer, and deductions for dependents with whom the filer was not even acquainted
and whom the filer did not support.69 Additional legal action is pending.

Employee Integrity Projects

TIGTA ensures IRS employee integrity by conducting proactive investigative initiatives to
detect misconduct in the administration of IRS programs. During this reporting period,
TIGTA initiated 13 proactive investigations to detect systemic weaknesses or potential
IRS program vulnerabilities.

Ten Former Seasonal IRS Employees Arrested for Missouri Unemployment
Benefits Fraud

A recent proactive initiative identified seasonal IRS employees who continued to receive
unemployment benefits after being recalled to work from furlough status by the IRS. This
initiative resulted in the arrests of 10 former IRS employees in the Kansas City, Missouri
area between December 11, 2013 and December 16, 2013, on charges stemming from a
Federal indictment for benefits fraud.70 The employees were indicted on December 10,
2013, in the Western District of Missouri, for theft of Government property and bank fraud
related to an unemployment benefits scheme.71

According to the indictment, the Missouri Division of Employment Security (MODES)
administered the unemployment benefits in Missouri on behalf of the Federal
Government, and the approved benefit funds for the individuals were then transferred to
Central Bank. Between January 2008 and February 2013, the defendants knowingly and
willfully stole money belonging to the United States and executed a scheme to defraud


67
68
   E.D. Pa. Indict. filed Feb. 11, 2014.
69
   Id.
70
   Id.
71
   W.D. Mo. Crim. Docket filed Dec. 10, 2013; W.D. Mo. Indict. filed Dec. 10, 2013.
   W.D. Mo. Indict. filed Dec. 10, 2013.
30         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


Central Bank by fraudulently obtaining unemployment benefits.72 The individuals were
required to certify weekly, via the Internet or telephone, any work and earnings in order
for MODES to determine the validity of continued benefits. All 10 of the defendants were
employed at the IRS while claiming unemployment benefits through MODES, resulting in
the fraudulent payment of benefits in amounts ranging from $6,127 to $21,348, with an
aggregate total of $112,609. The false representations in connection with their weekly
unemployment claims were further extended to obtain debit cards and/or financial
deposits and negotiable instruments of funds transferred from MODES to Central Bank.73
Additional legal action is pending.

Nine IRS Employees Sentenced for Tennessee Unemployment Benefits Fraud

OI reported in TIGTA’s Fall 2013 Semiannual Report to Congress that a proactive
initiative identified IRS employees who received unemployment benefits when employed
by the IRS. This initiative resulted in the arrests of 13 current and former IRS employees
in the Western District of Tennessee74 during the prior semiannual reporting period. The
employees were individually charged in separate indictments and were alleged to have
concealed material information and falsely stated that they were unemployed while
applying for or recertifying to obtain unemployment payments.75

During this six-month reporting period, nine of those employees received sentences
ranging from two to four years of probation for making false statements to the Tennessee
Department of Labor and Workforce Development in connection with their applications for
unemployment benefits. They were also ordered to make restitution totaling $77,303 to
the Tennessee Department of Labor and Workforce Development.76

Integrity Awareness Initiative

As part of an ongoing effort to promote employee integrity, OI partnered with the IRS to
produce Back-to-Basics training for all IRS executives, managers and employees. This
mandatory training served as a refresher course to all employees on the core elements of
the IRS mission statement, IRS values, and overall employee responsibilities. The
training focused on ethics, risk management, communication, and inclusion.



72
73
   Id.
74
   W.D. Mo. Indict. filed Dec. 10, 2013.
   W.D. Tenn. Arrest Warrants Returned Executed: Angela Allison, Dorothy Simmons, Teresa Jenkins,
Angela Scales, Mary Weeks, Evonna Yarbrough, Lillian Hamilton, Jessica Davis, Shari House, Talari
Mitchell, Serina Gaither, Joanne Johnson, and Gale Baker filed April 17, 2013; W.D. Tenn. Indictments:
Angela Allison, Dorothy Simmons, Teresa Jenkins, Angela Scales, Mary Weeks, Evonna Yarbrough, Lillian
Hamilton, Jessica Davis, Shari House, Talari Mitchell, Serina Gaither, Joanne Johnson, and Gale Baker,
filed
75
       March 27, 2013.
   W.D. Tenn. Indictments: Angela Allison, Dorothy Simmons, Teresa Jenkins, Angela Scales, Mary
Weeks, Evonna Yarbrough, Lillian Hamilton, Jessica Davis, Shari House, Talari Mitchell, Serina Gaither,
Joanne
76
         Johnson, and Gale Baker, filed March 27, 2013.
   W.D. Tenn. Judgment filed Oct. 31, 2013, Nov. 7, 2013, Dec. 5, 2013, Dec. 19, 2013, Jan. 14, 2014, Jan.
27, 2014, and Jan. 31, 2014.
                                                             October 1, 2013 – March 31, 2014           31
          TIGTA SEMIANNUAL REPORT TO CONGRESS


Performance Area: Employee and Infrastructure Security

Collecting taxes is a critical function of the Federal Government. Threats and assaults
directed at IRS employees, facilities, and infrastructure impede the effective
administration of the Federal tax system and the IRS’s ability to collect tax revenue. All
reports of threats, assaults, and forcible interference against IRS employees performing
their official duties are referred to OI. During this six-month reporting period, OI
responded to 1,007 threat-related incidents.

Contact with the IRS can be stressful and emotional for taxpayers. While the majority of
taxpayer contacts are routine, some may
become confrontational and even violent.
TIGTA’s special agents are statutorily
mandated to provide physical security, known
as “armed escorts,” to IRS employees who
have face-to-face contact with a taxpayer who
may pose a danger to the employee, to ensure
that IRS employees have a secure environment
in which they can perform their critical tax
administration functions. During this six-month
reporting period, OI conducted 27 armed
escorts for IRS employees.

OI undertakes investigative initiatives to identify individuals who could commit violence
against IRS employees, or who could otherwise pose a threat to IRS employees, facilities,
or infrastructure. OI provides crucial intelligence to IRS officials to assist them in making
proactive operational decisions about potential violence or other activities that could pose
a threat to IRS systems, operations, and employees.

OI’s investigative information sharing with the IRS Office of Employee Protection (OEP) to
identify potentially dangerous taxpayers is one example of TIGTA’s commitment to
protecting IRS employees. Taxpayers meeting OEP criteria are designated as potentially
dangerous. Five years after this designation has been
made, TIGTA conducts a follow-up assessment of the
taxpayer so that OEP can determine if the taxpayer still
poses a danger to IRS employees.

During this six-month reporting period, threat and
assault investigations accounted for 34 percent of OI’s
work. The following cases represent OI’s efforts to
ensure the safety of IRS employees during the reporting period:

Taxpayer Pleads Guilty for Threatening to Kill an IRS Employee

On December 4, 2013, a plea agreement regarding Gary McDevitt was accepted and filed
in the Middle District of Florida. McDevitt pled guilty to one count of using threats of force
32       October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


to intimidate and impede a Revenue Officer of the IRS.77 He was indicted for the offense
in June 2013.78 According to the plea agreement, McDevitt used threats of force to try to
impede an IRS Revenue Officer who was acting in an official capacity. After having his
bank account garnished by the IRS, McDevitt, during a recorded telephone contact with a
Community Tax Relief representative, made multiple statements indicating something bad
was going to happen if his money was not released. McDevitt said, in part, “…you might
be reading about me on the news because if this doesn’t get solved, that (expletive) ain’t
going to be on this earth.” At least eight more times during the conversation McDevitt
said, referring to the Revenue Officer, he was going to be “a dead man,” “going to die,” or
something similarly threatening. McDevitt indicated he was serious and knew where the
Revenue Officer was located.79 McDevitt admitted he threatened to kill the IRS Revenue
Officer because of the levy on his bank account.80

Louisiana Man Pleads Guilty to Threatening a Witness in a Federal Criminal Trial

On October 30, 2013, in the Middle District of Louisiana, Anthony Williams, a resident of
Baton Rouge, Louisiana, pled guilty to one count of threatening to retaliate against a
witness in a Federal criminal trial.81 According to court documents, Williams threatened
to cause bodily injury to a witness who testified in the Federal trial of United States v.
Angela Myers.82 Myers was convicted by a jury on 21 Federal felonies83 involving false,
fictitious, or fraudulent claims, wire fraud, and aggravated identity theft. She was
sentenced to a total term of 132 months in prison.84 Williams, who is Myers’s son, made
a threat via Instagram (a social media platform through which users can post photographs
and other users can comment on photographs) with the intent to retaliate against the
witness for his testimony.85 Williams was indicted along with his coconspirator, Bobby
Riley, by a Federal grand jury on July 25, 2013, for conspiracy, threatening to retaliate
against a witness, and making false statements to Federal agents.86

Performance Area: External Attempts to Corrupt Tax Administration
TIGTA also investigates external attempts to corrupt or impede tax administration.
Taxpayers may interfere with the IRS’s ability to collect revenue for the United States in
many ways, for instance by: filing false or frivolous documents against IRS employees;
impersonating IRS employees or misusing IRS seals; using fraudulent IRS documentation
to perpetrate criminal activity; offering bribes to IRS employees to influence their tax
cases; or committing fraud in contracts awarded by the IRS to contractors. These
attempts to corrupt or otherwise interfere with tax administration not only inhibit the IRS's

77
78
   M.D. Fla. Plea Agr. filed Dec. 4, 2013.
79
   M.D. Fla. Indict. filed June 12, 2013.
80
   M.D. Fla. Plea Agr. filed Dec. 4, 2013.
81
   Id.
82
   M.D. La. Minute Entry filed Oct. 30, 2013; M.D. La. Williams and Riley Indict. filed July 25, 2013.
83
   M.D. La. Williams and Riley Indict. filed July 25, 2013.
84
   M.D. La. Angela Myers Indict. filed July 25, 2013.
85
   M.D. La. Angela Myers Judgment filed July 25, 2013.
86
   M.D. La. Williams and Riley Indict. filed July 25, 2013.
   Id.
                                                                October 1, 2013 – March 31, 2014         33
            TIGTA SEMIANNUAL REPORT TO CONGRESS


ability to collect revenue, but they also undermine the public's confidence in fair and
effective tax administration.

For example, IRS employees who have contact with the public frequently receive frivolous
correspondence and threatening letters. Individuals with personal vendettas against the
IRS sometimes file false liens or other financial encumbrances against IRS employees in
retaliation. The filing of an invalid lien in retaliation against a Government employee not
only creates personal financial troubles for the targeted employee but is also a criminal
act. TIGTA special agents investigate these acts of retaliation and work with the
Department of Justice to prosecute such acts that interfere with or impede Federal tax
administration.

Individuals may also impersonate the IRS or its employees to obtain Personally
Identifiable Information (PII) from unsuspecting taxpayers or to defraud them out of their
money. These individuals may claim to be IRS employees on the telephone or may
misuse IRS logos, seals, or symbols to create official-looking letters and e-mails they
send to taxpayers. The taxpayers are often told they owe money to the IRS that must be
paid through a pre-loaded debit card or wire transfer. Sometimes taxpayers are tricked
into providing their PII, which the impersonator uses to commit identity theft. TIGTA
aggressively investigates these criminal activities to ensure that taxpayers maintain
confidence in the integrity of Federal tax
administration.

During this reporting period, investigations into
attempts to corrupt or impede tax administration
accounted for 11 percent of OI’s work. The following
cases represent OI’s efforts to address and deter
external attempts to corrupt tax administration during
this six-month reporting period:

Individual Sentenced for Interference With Tax Administration

On October 4, 2013, in the Eastern District of Arkansas, Fred Neal, Jr. was sentenced for
corruptly interfering with the Internal Revenue laws and filing false liens against
Government employees and officials.87 Neal pled guilty to the offenses on June 18,
2013.88 According to court documents, Neal corruptly endeavored to obstruct or impede
the due administration of the I.R.C. by attempting to intimidate, harass, and attack the
financial integrity of Government officials believed to be party to legal actions brought
against him by the IRS.89 He acknowledged that he did so with the intent to secure an
unlawful advantage or benefit to himself by attempting to keep the United States from




87
88
   E.D. Ark. Judg. filed October 7, 2013.
89
   E.D. Ark. Plea Agr. filed June 18, 2013.
   E.D. Ark. Indict. filed Feb. 2, 2011.
34         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


foreclosing on his property.90 Neal and his spouse had outstanding Federal income tax
assessments of approximately $1.3 million.91

Neal engaged in open defiance of the liability after legal action and collection proceedings
were initiated.92 He caused repeated filings of fictitious legal and tax documents attacking
the personal financial integrity and well-being of officials and employees of the United
States, including the Secretary of the Treasury, seven IRS employees, three Department
of Justice Tax Division attorneys, at least three Federal judges and associated U.S. Court
personnel, and a U.S. Attorney.93

Neal’s filings of fictitious forms misrepresented that these Government employees and
officials had paid and received personal income reportable to the IRS totaling more than
one billion dollars.94 Additionally, Neal filed in public records false and fraudulent liens
against the real and personal property of these officers and employees of the United
States on account of the performance of their official duties.95 He acknowledged that he
knew the liens or encumbrances were false or contained materially false statements.96

Neal was sentenced to one-year and one-day imprisonment, followed by a year of
supervised probation. He was further ordered to participate in a mental health program.97

Nigerian Citizen Sentenced to 10 Years for Wire Fraud Scheme

On October 21, 2013, in the Central District of California, Claudio Uche Dibe was
sentenced on 15 counts of wire fraud in a scheme that targeted the elderly.98 Dibe pled
guilty to his role in the scheme on July 31, 2012.99 According to court documents, Dibe, a
Nigerian citizen who used the alias “John Brown,” and his coconspirators defrauded
victims and obtained money by means of false representations and promises.100

As part of the scheme, a coconspirator would send e-mails to victims representing that
the coconspirator was an attorney or foreign government official who was responsible for
distributing an inheritance.101 The e-mails sent to unsuspecting victims falsely informed
them that they owed additional taxes to the IRS, or had inherited millions of dollars but
needed to pay processing fees to release the funds.102



90
91
   E.D. Ark. Plea Agr. filed June 18, 2013.
92
   Id.
93
   E.D. Ark. Indict. filed Feb. 2, 2011.
94
   E.D. Ark. Indict. filed Feb. 2, 2011 and E.D. Ark. Plea Agr. filed June 18, 2013.
95
   E.D. Ark. Indict. filed Feb. 2, 2011.
96
   E.D. Ark. Indict. filed Feb. 2, 2011 and E.D. Ark. Plea Agr. filed June 18, 2013.
97
   Id.
98
   E.D. Ark. Judg. filed October 7, 2013.
   C.D. Cal. Judgment filed Oct. 21, 2013; C.D. Cal. Opposition to Defendant’s Ex Parte Application to
Continuance
99
               of Trial Date filed June 6, 2012.
100
   C.D. Cal. Crim.  Minutes-Change of Plea filed July 31, 2012.
101
    C.D. Cal. Indict.  filed Oct. 21, 2009.
102
    Id.
    C.D. Cal. Crim. Compl. filed Aug. 3, 2009.
                                                              October 1, 2013 – March 31, 2014           35
           TIGTA SEMIANNUAL REPORT TO CONGRESS


When a victim responded to a solicitation e-mail, Dibe and his coconspirators continued
contact with the victim by telephone and e-mail using fictitious identities, pretending to be
attorneys, bankers, diplomats, and other government officials, to persuade the victims
that they were legitimate professionals who could assist in obtaining the promised
inheritance, thus inducing victims to send money. Victims were instructed to wire money
via Western Union® and MoneyGram® to pay the purported fees. Contrary to the
representations made to the victims, the funds received were not used to pay any fees,
nor were inheritance payments issued to the victims. Dibe and his coconspirators kept
the funds for their own benefit.103

Dibe was sentenced to 120-months imprisonment, followed by three years of supervised
probation. He was ordered to pay restitution in the amount of $1,079,445 and a $1,500
special assessment. Additionally, the court ordered all monies received by Dibe for
income tax refunds, lottery winnings, inheritances, judgments, and other financial gains to
be applied to the outstanding court-ordered financial obligations.104

Tax Preparer Indicted for Extortion by Use of Threats and Impersonation

On November 6, 2013, in the Middle District of Pennsylvania, Maria Colvard was charged
in a superseding indictment with extortion by a person representing herself to be an
officer of the United States, impersonating an employee of the United States, and
interference with commerce by threats.105 Colvard and co-defendant Merarys Paulino
were initially indicted on June 5, 2013.106 On October 8, 2013, Paulino entered a guilty
plea to extortion by a person representing herself as an officer of the United States.107

According to the November superseding indictment, Colvard obstructed and affected the
commerce of Cristina’s Tax Service by extortion with the wrongful use of fear and threats,
including the fear of economic loss. As part of the extortion scheme against her business
competitor, Colvard aided, counseled, and induced Paulino in representing herself to be
an employee of the United States, specifically, a criminal investigator with the IRS named
“LaBella Williams.” Under the false pretense of her employment with the IRS, Paulino
demanded the client list of Cristina’s Tax Service, sums of money, and the closure of the
business.108 Extortion through the wrongful use of threats or under the color of an official
act carries a potential sentence of up to 20-years imprisonment.109

Pennsylvania Couple Sentenced for Bribery of a Public Official and Tax Evasion

On January 21, 2014, in the Middle District of Pennsylvania, Ivan and Mayra Garces were
sentenced for bribery of a public official and tax evasion.110 Both pled guilty to the

103
104
    C.D. Cal. Indict. filed Oct. 21, 2009.
105
    C.D. Cal. Judgment filed Oct. 21, 2013.
106
    M.D. Pa. Superseding Indictment filed Nov. 6, 2013.
107
    M.D. Pa. Indictment filed June 5, 2013.
108
    M.D. Pa. Criminal Docket filed June 5, 2013.
109
    M.D. Pa. Superseding Indictment filed Nov. 6, 2013.
110
    18 U.S.C § 1951.
    M.D. Pa. Judgment Ivan Garces filed Jan. 22, 2014; M.D. Pa. Judgment Mayra Garces filed Jan. 22,
2014.
36        October 1, 2013 – March 31, 2014
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


offenses in May 2013.111 According to the November 2011 indictment charging the
Garces with bribery of a public official, Ivan and Mayra Garces corruptly offered to pay an
IRS agent $50,000 to aid in committing fraud against the United States. Specifically, the
Garces offered to pay the $50,000 bribe in exchange for the IRS agent’s filing a false
examination report reflecting an amount due that was substantially less than what the
Garces owed in taxes.112

Subsequently, a superseding information was filed in May 2013 against each of the
Garces, adding the charge of tax evasion. According to court documents, between 2008
and 2010, the Etters, Pennsylvania residents willfully attempted to evade and defeat a
large portion of their income tax due and owed. The Garces filed three fraudulent tax
returns, significantly understating their joint taxable income and tax due. Collectively for
the three tax years, the Garces understated their income by over $1 million,113 resulting in
a tax loss of $391,595.114

Ivan Garces was sentenced to 18 months in prison and fined $7,700.115 Mayra Garces
was sentenced to 12-months and one-day imprisonment and was also fined $7,700.116
Both will be required to complete one year of supervised release following their
imprisonment.117 The Garces will forfeit the $50,000 bribe.118
Taxpayer Sentenced for Impeding Tax Administration

On November 13, 2013, in the District of Hawaii, Miguel Rivera was sentenced for
attempting to interfere with the due administration of the Internal Revenue laws.119
According to court documents, Rivera knowingly and intentionally devised a scheme to
defraud United Healthcare Services and the IRS to obtain money and property by means
of false and fraudulent representations.120 Rivera pled guilty on June 14, 2013 to two
counts of attempts to interfere with the IRS.121

Rivera was married to an individual who was employed by United Healthcare Services
and owed the IRS money for unpaid Federal income taxes. Rivera and his spouse had a
joint bank account at First Hawaiian Bank. When the IRS imposed a tax lien on the
wages of Rivera’s spouse, United Healthcare Services deducted $2,397.08 from her
salary. Rivera submitted false information to United Healthcare Services, making it

111
    M.D. Pa. Plea Agr. Ivan Garces filed May 22, 2013; M.D. Pa. Plea Agr. Mayra Garces filed May 22,
2013.
112
113
    M.D. Pa. Indict. filed Nov. 16, 2011.
    M.D. Pa. Superseding Info. Ivan Garces filed May 22, 2013; M.D. Pa. Superseding Info. Mayra Garces
filed
114
      May 22, 2013.
    M.D. Pa. Plea Agr. Ivan Garces filed May 22, 2013; M.D. Pa. Plea Agr. Mayra Garces filed May 22,
2013.
115
116
    M.D. Pa. Judgment Ivan Garces filed Jan. 22, 2014.
117
    M.D. Pa. Judgment Mayra Garces filed Jan. 22, 2014.
    M.D. Pa. Judgment Ivan Garces filed Jan. 22, 2014; M.D. Pa. Judgment Mayra Garces filed Jan. 22,
2014.
118
119
    Id.
120
    D. HI Judgment filed Nov. 18, 2013.
121
    D. HI Indictment filed Feb. 28, 2013.
    D. HI Plea Agreement filed June 14, 2013.
                                                            October 1, 2013 – March 31, 2014         37
           TIGTA SEMIANNUAL REPORT TO CONGRESS


appear that the IRS had released the lien and Rivera’s spouse could resume receiving
her wages, salary, and other income. United Healthcare Services subsequently returned
$2,397.08 to Rivera’s spouse.122

Additionally, as the IRS’s collection efforts continued, an IRS Revenue Officer notified
First Hawaiian Bank of an IRS-imposed tax lien on Rivera’s spouse’s property under the
bank’s control. Three days after notification to the bank, Rivera submitted a false and
fraudulent release of levy to First Hawaiian Bank. Rivera did so with the intent that the
false levy release would be treated as if it were real and to regain access to the money in
his joint bank account.123

Rivera was sentenced to three months in prison, followed by one year of supervised
release. Rivera was also ordered to pay restitution to the IRS in the amount of $2,397.124

Investigative Support
The Strategic Data Services Division

TIGTA’s Strategic Data Services (SDS)
Division encompasses five interrelated programs that support TIGTA’s audit, inspection,
evaluation, and investigation activities. Many of these programs function to detect and
identify insider threats, that is, employees who are engaged in fraudulent activities or who
make unauthorized accesses to taxpayer information maintained in IRS computer
systems.

SDS develops risk assessment models using various scenarios to identify high-risk areas
in IRS operations to detect asset misappropriation, corruption, such as bribery and
identity theft, and other offenses involving IRS personnel and activities. In addition to
these proactive efforts, SDS also provides data extracts from IRS systems and audit trails
to support TIGTA’s investigations and audits. During this six-month reporting period, SDS
referred for investigation 80 IRS employees who potentially misused IRS computer
systems to make unauthorized accesses to tax information.

The early detection and identification of IRS employees who make unauthorized
accesses to information or otherwise misuse IRS data and computer systems is critical to
OI’s success in investigating these employees and stopping them before further damage
is done. SDS uses data analysis techniques for the proactive detection of IRS employees
potentially engaged in unauthorized accesses, identity theft, theft of taxpayer refunds, and
preferential treatment of taxpayers. IRS employees who make unauthorized computer
accesses face criminal prosecution, civil sanctions, and the loss of their jobs. Under
Section 7213A of the I.R.C., the willful unauthorized access or inspection of taxpayer
records by an IRS employee is a misdemeanor crime. If convicted, violators can be fined
up to $1,000 and face up to one year in prison. In addition to criminal penalties, civil

122
123
    D. HI Indictment filed Feb. 28, 2013; D. HI Plea Agreement filed June 14, 2013.
124
    Id.
    D. HI Judgment filed Nov. 18, 2013.
38         October 1, 2013 – March 31, 2014
                 TIGTA SEMIANNUAL REPORT TO CONGRESS


remedies may also be pursued by any taxpayer whose return or return information has
been knowingly or negligently inspected or disclosed. Taxpayers may receive damages
of $1,000 for each occurrence of unauthorized access or disclosure or the actual
damages sustained, if greater.




                                                 October 1, 2013 – March 31, 2014   39
     TIGTA SEMIANNUAL REPORT TO CONGRESS




40   October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS



         Advancing Oversight of America’s Tax
                      System
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,


T     and cost-effective inspections and evaluations of challenging areas within the IRS,
      providing TIGTA with additional flexibility and capability to produce value-added
      products and services to improve tax administration. I&E’s work is not a
      substitute for audits and investigations; in fact, its findings may result in
subsequent audits and/or investigations.

This function has two primary product lines: inspections and evaluations.

Inspections are intended to:

        Provide factual and analytical information;
        Monitor compliance;
        Measure performance;
        Assess the effectiveness and efficiency of programs and operations;
        Share best practices; and
        Inquire into allegations of waste, fraud, abuse, and mismanagement.

Evaluations are intended to:

        Provide in-depth reviews of specific management issues, policies, or programs;
        Address Governmentwide or multi-agency issues; and
        Develop recommendations to streamline operations, enhance data quality, and
         minimize inefficient and ineffective procedures.

The following reports highlight some of the significant activities that I&E engaged in during
this six-month reporting period:

Internal Controls Are in Place to Ensure That Deposits Are Safely Delivered by
Submission Processing Site Employees, but Some Documentation Could Be
Improved

This report presented the results of I&E’s inspection to determine whether internal
controls are in place to ensure that deposits that are required to be delivered by
Submission Processing site employees are safely delivered to depositories.

IRS Submission Processing site employees delivered to depositories more than
1.6 million payments totaling almost $5 billion from October 2011 through May 2013.
During its inspection, TIGTA identified no problems with the delivery of the deposits;

                                                     October 1, 2013 – March 31, 2014     41
          TIGTA SEMIANNUAL REPORT TO CONGRESS


however, TIGTA found that one deposit was delivered by an employee who was not listed
as authorized in the Courier Contingency Plan at the time of the delivery, and that one
site was not using the current Courier Daily Checklist (Checklist) and capturing all the
necessary information.

TIGTA recommended that the Director, Submission Processing, Wage and Investment
Division, require the employees who prepare the Checklist to ensure that the Submission
Processing site employees delivering the deposit are listed in the Courier Contingency
Plan, just as they would check that the contract couriers are on the Courier Deposit
Access List. In addition, the Director should ensure that employees use the current
version of the Checklist, properly record all required information on the Checklist, and
provide explanations for untimely deposits on the Courier Incident Log.

IRS management agreed with these recommendations.

Reference No. 2014-IE-R002

Inspection of the Submission Processing Centers’ Mailroom Screening Procedures
for Hazardous Material

I&E initiated this project to determine whether current IRS policies and procedures for
detecting and minimizing the effects of explosives, hazardous material, and other
suspicious mail submitted to IRS Submission Processing centers are sufficient and
effective.

TIGTA inspected two IRS Submission Processing centers and found that the centers
have controls in place to detect and minimize the effects of explosive and hazardous
material submitted via mailrooms; however, additional controls should be considered
to improve procedures and ensure that effective screening measures are available
throughout the year. I&E found that procedures were generally consistent and
effective in identifying, reporting, and responding to suspicious packages and unknown
substances.

For the facilities included in the inspection, the IRS followed proper procedures for
reporting suspicious packages or unknown substances to IRS Physical Security and
Emergency Preparedness personnel, and local enforcement and emergency
authorities were notified and responded accordingly. Additionally, IRS personnel
receive annual safety training, which includes identifying and responding to potential
hazardous material and suspicious mail and packages.

However, the centers were inconsistent with regard to the manner in which they
displayed signs in and around loading docks and mailrooms to increase hazardous
material awareness and remind employees of incident reporting procedures. I&E also
found that one location received its mail directly from the U.S. Postal Service and
small package carriers, which directly contradicted findings in the facility’s security risk

42       October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


assessment. This facility does not have an Explosive Detection Dog Program or an x-
ray machine available to screen parcels. Additionally, the mailroom within the facility
shares the facility’s heating, ventilation, and air conditioning system, which would
further complicate response and containment efforts if an actual hazardous material
incident were to occur.

TIGTA recommended that the Chief, Agency-Wide Shared Services, implement
regulations for minimum mail screening requirements, to ensure that policies and
supplemental screening procedures are available throughout the entire year. TIGTA also
recommended hanging posters and other signs in and around IRS mail receiving and
processing areas, reminding personnel of hazardous material threats and known
identifiers. Lastly, TIGTA recommended that the Chief, Agency-Wide Shared Services,
verify whether IRS posts of duty receive mail directly from the U.S. Postal Service and
small package carriers, and ensure that those posts of duty have procedures in place to
detect and minimize the effects of explosives and hazardous material received through
the mail.

IRS officials agreed with these recommendations.

Reference No. 2014-IE-R004

The IRS’s Executive Long-Term Taxable Travel

This report presented the results of an I&E inspection to determine whether the IRS has
established guidance and procedures so that senior executives and their managers know
when overnight long-term travel is subject to taxation.125

In FY 2011 and FY 2012, the IRS had 351 and 373 executives, respectively.126 In
FY 2011, IRS executives received approximately $4.8 million in travel reimbursements.
In FY 2012, executive travel reimbursements decreased to about $4.7 million.127 TIGTA
analyzed travel information regarding IRS executives from GovTrip128 and the Integrated
Financial System129 for IRS executives to determine whether executive travel appeared to
be long-term and met the criteria of long-term taxable travel (LTTT) status. In general,
employees who perform temporary duty travel assignments exceeding one year at a
single or principal location are subject to income taxation of their travel expense
reimbursements.

125
    The criteria used to determine the taxability for long-term local travel are different from the criteria used
for
126
    overnight travel. We did not include local travel in the scope of this review.
    The number of executives for each fiscal year was calculated based on the number of executives on roll
as of the end of the fiscal year and the number of executives who worked during the fiscal year but
separated
127
             before the end of the fiscal year.
    Because some executives were not executives for the entire fiscal year, travel expenses may include
travel
128
       for trips made as nonexecutives.
    GovTrip is a computer application and database that provides IRS travelers with automated travel
planning and reimbursement capabilities. The system also includes authorization, reservation, and
vouchering
129
              capabilities.
    The Integrated Financial System contains the IRS’s core financial systems, including expenditure
controls, accounts payable, accounts receivable, general ledger, and budget formulation.
                                                                  October 1, 2013 – March 31, 2014             43
          TIGTA SEMIANNUAL REPORT TO CONGRESS



Overall, TIGTA found that the IRS has policies in place to inform senior executives and
their managers when overnight long-term travel reimbursements are subject to
employment taxes. At the beginning of CY 2012, the IRS instituted a quarterly review
process to identify potential LTTT. In April 2013, the IRS instituted a new interim travel
policy that reminds executives to comply with the LTTT requirements.

TIGTA reviewed the travel records for 31 executives, less than 10 percent of all employed
IRS executives, to determine whether their travel appeared to be properly classified as
taxable or nontaxable. TIGTA found that the tax classification of travel for nine executives
appeared to be incorrect based on their travel patterns and the IRS’s validation, and for
three executives the classification was not made in a timely manner. Consequently, not
all executives who were in an LTTT status were correctly and/or timely classified as such;
therefore, the IRS did not withhold the appropriate amount of taxes on the travel
reimbursements paid to some executives.

TIGTA recommended that the Chief Financial Officer modify and document procedures
for conducting periodic reviews to determine whether employees and managers
accurately determine and report the taxability of long-term travel. Furthermore, the Chief
Financial Officer should annually inform or remind IRS employees of the policies and
procedures related to LTTT and of travelers’ and managers’ responsibility to accurately
determine whether travel may be taxable.

IRS management agreed with the recommendations.

Reference No. 2014-IE-R005

Special Tax Matters
In January of 2014, I&E changed its organizational structure and design. The
International group was dissolved, and a new group, Special Tax Matters, was created.
The Special Tax Matters group specializes in performing inspections and evaluations
across the entire spectrum of tax administration. The topics could sometimes bridge tax
administration and affect tax policy decisions, and are often the direct concerns of TIGTA.

The following reports highlight some of the Special Tax Matters group’s significant
activities for this six-month reporting period:

Compendium of Unimplemented Recommendations

The Compendium of Unimplemented Recommendations lists open unimplemented
corrective actions from TIGTA’s September 30, 2013 Semiannual Report and reflects
any changes in the interim through January 31, 2014. The Compendium highlights for
IRS management those significant recommendations that were unimplemented past the
date agreed upon by the IRS and TIGTA. Corrective actions are reported as past due if
they have not been completed within one year of the original due date established by
44       October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


September 30, 2012. When implemented, recommendations have the potential to result
in cost savings and improve program efficiency and effectiveness.

It is part of TIGTA’s strategy to promote a strong internal control environment in the IRS.
Toward this end, TIGTA collaborated with IRS managers and executives responsible for
audit follow-up. The goal is to assist IRS management in monitoring the agency’s
internal controls and to promptly correct agreed-to deficiencies. Implementing corrective
actions will correct control weaknesses, thereby increasing effectiveness and efficiency,
reducing vulnerabilities, and mitigating risks.

Department and agency management have the responsibility for establishing and
maintaining adequate systems of management controls. The Federal Managers’
Financial Integrity Act of 1982130 amended the Accounting and Budget Procedures Act of
1950 by requiring the Comptroller General to include standards to ensure the prompt
resolution of all audit findings.

The Office of Management and Budget (OMB) Circular A-50131 states that audit follow-up
is an integral part of good management and is a shared responsibility of agency
management officials and auditors. Corrective action taken by management on resolved
findings and recommendations is essential to improving the effectiveness and efficiency
of Government operations. Likewise, Treasury Directive 40-03132 establishes the
departmental policies for audit resolution, follow-up, and closure.

The IRS policies and procedures for audit follow-up and closure are found in the Internal
Revenue Manual (IRM).133 The IRS is responsible for implementing corrective actions
and determining whether the actions are effective in correcting a deficiency.

For context, the IRS expends significant agency resources to improve management
controls by implementing planned corrective actions. More specifically, for the three-year
period of FY 2011 through FY 2013, TIGTA issued 377 reports and the Government
Accountability Office (GAO) issued 66 reports with a combined total of 1,255
recommendations. Altogether, there were 1,546 planned corrective actions due during
the time period; over 90 percent of the planned corrective actions were completed on time
within the period.

130
    31 U.S.C. §§ 1105, 1113, and 3512. The Federal Managers' Financial Integrity Act (FMFIA) requires
that agency management establish and maintain effective internal controls to achieve the objectives of: 1)
effective and efficient operations, 2) reliable financial reporting, and 3) compliance with applicable laws and
regulations. The FMFIA also requires the head of each executive agency to report annually to the
President and Congress on the effectiveness of the internal controls and to identify any material
weaknesses in those controls. Reporting material weaknesses under the FMFIA is not limited to
weaknesses in financial reporting.
131
    OMB, OMB Circular No. A-50 Revised, Audit Followup (Sept. 1982).
132
    Department of the Treasury, TD 40-03, Treasury Audit Resolution, Follow-Up, and Closure.
133
    The IRM is the IRS’s primary official source of instructions to staff relating to the administration and
operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities. The Resource Guide for Managers: Monitoring and Improving Internal Control is found in
IRM 1.4.2. The Audit Process for GAO and TIGTA is found in IRM 11.5.1.
                                                                October 1, 2013 – March 31, 2014             45
           TIGTA SEMIANNUAL REPORT TO CONGRESS


The Compendium is organized in accordance with the TIGTA-identified Major
Management Challenges (MMC),134 in the priority order as determined by the Inspector
General. Each MMC Section has an overview of the challenge followed by the specific
significant unimplemented corrective actions. This includes a summary of the report, the
recommendations, and the scheduled completion date of the unimplemented corrective
actions.

Evaluation Number IE-13-012

American Recovery and Reinvestment Act of 2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act)135 was enacted on
February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they moved to implement provisions quickly while attempting to minimize risk
and meet increased standards for transparency and accountability. However, with its
more than 50 tax provisions, the Recovery Act posed especially significant challenges to
the IRS, as the Nation’s tax collection agency and administrator of the tax laws.

Funding for Recovery Act-related activities expired September 30, 2013. TIGTA
completed audits/inspections/evaluations initiated prior to the funding expiration and
issued the following significant reports related to the IRS’s efforts to implement Recovery
Act tax provisions during this six-month reporting period:

Review of the IRS’s American Recovery and Reinvestment Act Fund Expenditures
for FY 2012

This report presented the results of I&E’s inspection to verify the accuracy, timeliness,
and reporting of the payment of invoices by the IRS for Recovery Act expenditures during
the period October 1, 2011 through September 30, 2012. This was the fifth in a
series of inspections regarding compliance with the OMB136 guidance137 for
implementation of the Recovery Act.



134
    The MMCs as identified by TIGTA ranked in order are: Security for Taxpayer Data and IRS Employees;
Implementing the Affordable Care Act and Other Tax Law Changes; Tax Compliance Initiatives;
Modernization; Fraudulent Claims and Improper Payments; Providing Quality Taxpayer Service Operations;
Human Capital (no unimplemented corrective actions outstanding); Globalization (no unimplemented
corrective actions outstanding); Taxpayer Protection and Rights; and Achieving Program Efficiencies and
Cost Savings.
135
    Pub. L. No. 111-5, 123 Stat. 115.
136
    The OMB has primary responsibility for developing Governmentwide rules and procedures to ensure that
Recovery Act funds are awarded and distributed in a prompt and fair manner, that use of funds is
transparent to the public, and that steps are taken to mitigate fraud, waste, and abuse.
137
    OMB, M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(Feb. 18, 2009); M-09-15, Updated Implementing Guidance for the American Recovery Reinvestment Act
of 2009 (April 3, 2009); and M-10-34, Updated Guidance on the American Recovery and Reinvestment Act
(Sept. 24, 2010).
46        October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


The inspection showed that the IRS was in compliance with the OMB’s Recovery Act
implementation guidance for Recovery Act expenditures from October 1, 2011 through
September 30, 2012. The IRS generally executed adequate internal controls to ensure
timely and accurate reporting. During the period of the inspection, the IRS paid
approximately $212,000138 to seven vendors for Recovery Act expenses, including an
interest fee in excess of $3,100139 for one invoice. Discounts were offered for the prompt
payment of invoices, and the IRS obtained approximately $2,400 of the approximately
$4,300140 available.

IRS management agreed to the observations in the draft report.

Reference No. 2014-IE-R001

Review of Section 1603 Grants in Lieu of Energy Investment Tax Credit

This report presented the results of an I&E inspection to determine if the IRS has
established a permanent process to identify taxpayers that have received Recovery Act
Section 1603 grants.141

The IRS has not developed a permanent process to identify taxpayers that have received
Section 1603 grants and that may have erroneously claimed one of two investment tax
credits, the Energy Production Tax Credit142 or the Energy Investment Tax Credit,143 on
the same property. In addition to other restrictions, taxpayers, upon accepting the
Section 1603 grant, elect not to claim an investment tax credit for qualifying facilities
placed into service on or after January 1, 2009.144 As of May 10, 2013, the Department of
the Treasury has awarded 9,016 grants totaling $18.5 billion.

The IRS is currently conducting a Compliance Initiative Project (CIP)145 on taxpayers that
received Section 1603 grants, primarily during 2009.146 During our review, an extension
of the time period for the CIP to June 30, 2015 was requested and approved. Although
the CIP was in process during our review, only tentative results were available. The
Large Business and International (LB&I) Division147 selected and examined 16 taxpayers
138
139
    The exact amount of payment for these invoices was $212,412.24.
140
    The exact amount of the interest fee was $3,186.37.
    The exact amount of available discounts was $4,289.28. The IRS took $2,411.57 (56.2 percent) of the
available
141
           discounts.
    Taxpayers upon accepting the Section 1603 grants elect not to claim the energy tax credits under
I.R.C. § 48 of the renewable electricity production tax credit under I.R.C. § 45 with respect to otherwise
qualifying
142
            facilities placed into service on or after January 1, 2009.
143
    I.R.C. § 45.
144
    I.R.C. § 48.
    There are other adjustments to computing future taxability that the taxpayer agrees to when receiving
the
145
     Section 1603 grant.
    A CIP is any activity involving contact with specific taxpayers and collection of taxpayer data within a
group, using either internal or external data to identify potential areas of noncompliance within the group, for
the purpose of correcting the noncompliance. A CIP Part 2 authorizes examinations of 50 or more
taxpayers.
146
147
    The CIP has been expanded to include TYs 2010 and 2011.
    The LB&I Division is an operating division within the IRS that serves corporations, subchapter S
corporations, and partnerships with assets greater than $10 million. These businesses typically employ
                                                                October 1, 2013 – March 31, 2014             47
           TIGTA SEMIANNUAL REPORT TO CONGRESS


and reportedly identified significant issues in eight. Similarly, the Small
Business/Self-Employed (SB/SE) Division148 selected 83 taxpayers for examination and
identified changes for 51. Although the results are not final and cannot be predicted, the
IRS’s recent justification for extending the CIP stated, “Anecdotes from the Service [IRS]
staff attending industry and practitioners’ discussions suggest that some practitioners are
encouraging the use of leasing transactions because that allows fair market value to be
overstated to increase the grant amount.” This statement and the apparent
noncompliance issues identified in the CIP may indicate the need for further oversight of
the $18.5 billion distributed through this grant program.

TIGTA recommended that the Commissioners for the LB&I Division and the SB/SE
Division evaluate the feasibility of establishing an indicator on taxpayer accounts that
received Recovery Act Section 1603 grants. This indicator would provide permanent
notice on the IRS files as to which taxpayers had received a Section 1603 grant, and
therefore that caution should be taken in processing any amended returns that claim an
investment tax credit.

IRS management agreed with the recommendation and plans to evaluate the feasibility of
establishing an indicator on the accounts of taxpayers who received Recovery Act
Section 1603 grants. If management determines that establishing the proposed indicator
is not feasible or practical, it will consider other effective alternatives.

Reference No. 2014-IE-R006




large numbers of employees, deal with complicated issues involving tax law and accounting principles, and
conduct
148
         business in an expanding global environment.
    The SB/SE Division is an operating division within the IRS that serves small business and self-employed
taxpayers by helping them to understand and meet their tax obligations.
48         October 1, 2013 – March 31, 2014
                  TIGTA SEMIANNUAL REPORT TO CONGRESS



      An Organization That Values Its People
TIGTA’s 2013 Inspector General Award

On January 10, 2014, Inspector General J. Russell George recognized the exemplary
achievements of TIGTA’s employees who had demonstrated their commitment to
excellence in public service on behalf of the organization. Their accomplishments
resulted in high mission impact, major contributions to customers and stakeholders,
integrity and efficiency, and significant quantifiable results.

Individual award recipients included Lynne Brzezenski of I&E for the Program Support
Category and an additional four individual award recipients for the Program Execution
Category: Michael Bell, Jacqueline Siegel, Cheryl Tinkham, and Erik Wood, all from the
Office of Investigations.

Group award recipients included the Congressional Disclosure Team, consisting of Amy
Jones, Carroll Field, Lori Creswell, and Brady Kiehm, all members of the Office of Chief
Counsel, and Matthew Sutphen, a member of the Office of the Inspector General.

The OI Strategic Data Services group award recipients included James Allen, Joseph
Butler, Amy Coleman, Michele Cove, Donald Meyer, Kevin O’Gallagher, Christine Orcutt,
Damon Plumber, Steven Vandigriff, and Jeffrey Williams.

The OA group award recipients for the Data Center Consolidation Team included John
Ledford, Joan M. Bonomi, and Myron Gulley.

The Office of Information Technology group award recipients for the Lync Engineering
Team included Buddy Rapczynski, Carolyn Bounds, and Ed McDonald.

Congratulations to the 2013 Inspector General Award recipients for their distinguished
service and commitment to excellence in public service and to the TIGTA organization.
Their dedication enables TIGTA to maintain its distinction as a performance-driven
organization and keeps us at the forefront of the Inspector General community.

U.S. Department of the Treasury Procurement Award

The 2013 Department of the Treasury’s Procurement Award Ceremony was held at the
Main Treasury Building on December 17, 2013. TIGTA’s Procurement Team received an
astounding total of five awards in recognition of its exceptional procurement
achievements. Secretary Lew and other Treasury officials presented the awards to Jeff
Stephenson, who accepted them on behalf of the Procurement Team, which consisted of
Ben Trapp, Yvette Taylor, Matthew Chabak, and Tom Roberts. Here is a breakdown of
the awards that the team received:


                                                    October 1, 2013 – March 31, 2014     49
          TIGTA SEMIANNUAL REPORT TO CONGRESS


      •       2013 Gold Medal;
      •       2013 HUBZone Small Business Champion Award;
      •       2013 Service Disabled Veteran Owned Small Business Champion Award;
      •       2013 Women Owned Business Champion Award; and
      •       2013 Bureau of the Year Award.

Jeff Stephenson, an experienced Contracting Officer who earned the distinguished honor
of Treasury’s “Contracting Officer Representative of the Year” in 2012, actively used his
knowledge and leadership to promote small business-sourcing of all applicable TIGTA
acquisitions.

Council of the Inspectors General on Integrity and Efficiency Award

On Thursday, October 15, 2013, the 16th Annual Council of the Inspectors General on
Integrity and Efficiency Awards Ceremony was held at the Constitution Center Auditorium,
Federal Housing Finance Agency, in Washington, D.C. Members of the Inspectors
General community who exemplify distinguished service and demonstrate leadership,
dedication, and excellence were recognized for outstanding accomplishments in public
service. Several employees of TIGTA were recognized for their accomplishments.

John Miller, Senior Correspondent, CBS News, provided the keynote address at the
ceremony, hosted by the Council of the Inspectors General on Integrity and Efficiency
(CIGIE). The CIGIE is composed of Inspectors General and Government ethics and law
enforcement officials. Below are employees recognized at the ceremony.

Individual Award Recipient
Special Agent Jacqueline D. Siegel was recognized for her personal commitment and
dedication to the TIGTA mission. Her exemplary investigative skills helped prevent
potentially violent offenders from carrying out a plan to murder an Internal Revenue
Service employee and a Federal district court judge.

Group Award Recipients
The Noncash Charitable Contributions Audit Team was recognized for its efforts to
improve the IRS’s detection and prevention of erroneous claims for noncash charitable
contributions. The TIGTA Audit Team award recipients included: Deann L. Baiza,
Director; Edward Gorman, Audit Manager (Retired); Stephen A. Elix, Auditor; Sandra L.
Hinton, Senior Auditor; Denise M. Gladson, Auditor; Marcus D. Sloan, Auditor; and
Lawrence Smith, Senior Auditor (Retired).

Crystal Hamling, a TIGTA OA employee detailed to the CIGIE Training Institute, was also
recognized with a special acknowledgement for her assistance with preparations for the
16th Annual Awards Ceremony.



50        October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS



                        Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on two occasions. The following are summaries of his testimony.

On January 14, 2014, Mr. George testified before the Senate Committee on Homeland
Security and Government Affairs about the subject of conference spending by the IRS.149
His testimony summarized a report150 that focused on the August 2010 IRS SB/SE
Division conference held in Anaheim, California.

According to information obtained from the IRS, 2,609 of its employees attended the
Anaheim conference at an estimated cost of approximately $4.1 million. We focused our
audit work on this conference specifically because of an allegation received by TIGTA
about excessive spending at the conference and because it was the most expensive
conference held by the IRS during FYs 2010 through 2012.

TIGTA identified several areas of concern associated with questionable accounting
practices and expenses related to the conference and made nine recommendations to
ensure taxpayer funds are expended more efficiently in the future. IRS management
agreed with all of TIGTA’s recommendations. Since the issuance of our report, the IRS
has addressed many of our recommendations with interim guidance that it plans to
formalize through an update to the IRM.

We determined that the IRS did not adequately track and monitor the costs for the
Anaheim conference. While IRS management provided documentation showing total final
costs of $4.1 million, we could not obtain reasonable assurance that this amount
represented a full and accurate accounting of the conference costs. For instance, the
conference included numerous expenses beyond basic travel costs, including the costs of
videos produced for the event and outside speaker costs.

Another area of concern was that the IRS did not follow established guidelines when
selecting the location of the conference, because it did not use available internal
personnel to identify the most cost-effective location. Instead, IRS management
approached two non-governmental event planners to identify an off-site location for the
conference. These event planners were not under contract with the IRS, but were instead
each paid a five percent commission directly by the hotels, based on the cost of rooms
paid for by the IRS. Because the event planners were directly compensated based on the
room rate, there was no incentive for the IRS to negotiate for a lower room rate and thus
save money.

149
    For this audit, we defined a conference as an IRS-sponsored meeting, retreat, seminar, symposium,
training, or other event that involved travel for 50 or more attendees. In addition, a conference is defined in
the Federal Travel Regulations as “[a] meeting, retreat, seminar, symposium or event that involves attendee
travel. The term ‘conference’ also applies to training activities that are considered to be conferences under
5 CFR 410.404.” See 41 CFR 300-3.1.
150
    TIGTA, Ref. No. 2013-10-037, Review of the August 2010 Small Business/Self-Employed Division’s
Conference in Anaheim, California (May 2013).
                                                                October 1, 2013 – March 31, 2014            51
           TIGTA SEMIANNUAL REPORT TO CONGRESS


On February 26, 2014, Mr. George testified before the House Committee on
Appropriations, Subcommittee on Financial Services and General Government, at its
“Oversight Hearing – Internal Revenue Service.” The Inspector General’s testimony
highlighted TIGTA’s recent work related to the most significant challenges currently facing
the IRS.

Providing effective taxpayer services while operating with a reduced budget is a
significant challenge facing the IRS. As demand for taxpayer services continues to
increase, resources have decreased, thereby affecting the quality of customer service
that the IRS is able to provide. For example, the IRS continues to struggle in providing
high quality customer service over the telephone.151 In addition, the IRS’s ability to
process taxpayer correspondence in a timely manner has also declined. Assistors who
answer the toll-free telephone lines also handle taxpayer correspondence (which includes
processing amended tax returns and working identity theft cases). As call volumes have
increased and assistors have been moved to answer telephone calls, the backlog of
paper correspondence inventories has substantially increased.

Another challenge the IRS faces is reducing the amount of improper payments made
each year. The Improper Payments Information Act of 2002152 requires Federal
agencies, including the IRS, to estimate the amount of improper payments made each
year. The Improper Payments Elimination and Recovery Act of 2010153 amended the
Improper Payments Information Act of 2002 by revising the definition of improper
payments and strengthening agency reporting requirements.

The only program the IRS has designated as high-risk is the EITC Program. The IRS
continues to report that more than 20 percent of EITC payments are issued improperly
each year. In FY 2013, the IRS estimates that it issued between $13 and $15 billion in
improper EITC payments. Although the IRS reported that its efforts prevented significant
amounts in erroneous EITC payments, it has made little improvement in reducing
improper EITC payments as a whole since it has been required to report estimates of
these payments to Congress. The IRS acknowledged in its FY 2012 Improper Payment
report to TIGTA154 that further reductions in the EITC improper payment rate will be
difficult to achieve. However, we have conducted a number of audits that have identified
specific actions that the IRS could take to reduce improper EITC payments.155



151
    See TIGTA, Ref. No. 2013-40-124, Late Legislation Delayed the Filing of Tax Returns and Issuance of
Refunds
152
          for the 2013 Filing Season (Sep. 2013).
153
    Pub. L. No. 107-300, 116 Stat. 2350.
154
    Pub. L. No. 111-2014, 124 Stat. 2224.
    IRS, Report on Earned Income Tax Credit (EITC) Improper Payments Executive Order 13520: Reducing
Improper
155
           Payments (March 14, 2013).
    TIGTA, Ref. No. 2005-40-133, Administration of the Earned Income Tax Credit Program Has Improved,
but Challenges Continue (Aug. 2005); TIGTA, Ref. No. 2006-40-103, Controls Can Be Improved to Ensure
Advance Earned Income Credit Reported on Individual Income Tax Returns Is Accurate (July 2006);
TIGTA, Ref. No. 2009-40-024, The Earned Income Tax Credit Program Has Made Advances; However,
Alternatives to Traditional Compliance Methods Are Needed to Stop Billions of Dollars in Erroneous
Payments (Dec. 2008); TIGTA, Ref. No. 2010-41-116, Actions Can Be Taken to Improve the Identification
of Tax Return Preparers Who Submit Improper Earned Income Tax Credit Claims (Sep. 2010).
52        October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS


In addition to the EITC, the IRS administers numerous other tax credits. We believe the
IRS’s identification of the EITC as the only high-risk category of improper payments may
significantly underestimate the risk of other categories of improper payments. For
example, we reported in September 2011156 that the IRS lacked effective processes to
identify taxpayers who claim erroneous education credits. As a result, 2.1 million
taxpayers received a total of $3.2 billion in education credits ($1.6 billion in refundable
credits and $1.6 billion in nonrefundable credits) that appeared to be erroneous.

The IRS is also challenged by the rapidly growing problem of identity theft tax refund
fraud, including the use of SSNs of and by prisoners to file false tax returns, and tax fraud
related to the use of stolen EINs. The IRS has made this issue one of its top priorities
and has made some progress; however, significant improvements are still needed. For
example, in September 2013, TIGTA reported that the impact of identity theft on tax
administration continues to be significantly greater than the amount the IRS detects and
prevents.157

Once the IRS identifies a potential identity theft tax return, it must verify the identity of the
individual filing the return. However, verifying whether the returns are fraudulent will
require additional resources. Without the necessary resources, it is unlikely that the IRS
will be able to work the entire inventory of potentially fraudulent tax returns that it
identifies, thus resulting in the issuance of refunds for those returns. The net cost of
failing to provide the necessary resources is substantial, given that the potential revenue
loss to the Federal Government of these tax fraud-related identity theft cases is billions of
dollars annually.

Implementing the ACA, which represents the largest set of tax law changes in more than
20 years, will present many challenges for the IRS in the coming years. For example, the
information technology and security challenges for the ACA are considerable and include
implementation of interdependent projects in a short span of time, evolving requirements,
coordination with internal and external stakeholders, cross-agency system integration,
and testing.

The Health Insurance Exchanges (Exchanges)158 will request income and family size
information for all applicants and their family members who are qualified to apply for
health insurance and will forward the requests to the IRS. The IRS, using Federal tax
data, will determine the applicant’s historical household income, family size, filing status,
adjusted gross income, taxable Social Security benefits, and other requested information.
The IRS will then transmit the Federal tax data to the HHS Data Services Hub for delivery
to the appropriate Exchange. The Exchanges will compare the IRS information with the
information provided by the applicant and other available data to make the determination
156
    TIGTA, Ref. No. 2011-41-083, Billions of Dollars in Education Credits Appear to Be Erroneous (Sep.
2011).
157
    TIGTA, Ref. No. 2013-40-122, Detection Has Improved; However, Identity Theft Continues to Result in
Billions
158
         of Dollars in Potentially Fraudulent Tax Refunds (Sep. 2013).
    The Exchanges are intended to allow eligible individuals to obtain health insurance, and all Exchanges,
whether State-based or established and operated by the Federal Government, will be required to perform
certain functions.
                                                              October 1, 2013 – March 31, 2014            53
           TIGTA SEMIANNUAL REPORT TO CONGRESS


as to eligibility. TIGTA remains concerned about the protection of confidential taxpayer
data that will be provided to the Exchanges.

TIGTA is currently evaluating the accuracy of the data that the IRS provides to HHS for
use in enrolling individuals and calculating the Advanced Premium Tax Credit, and plans
to issue a report this year.159 We also plan to assess the protection of Federal tax data
provided by the IRS’s Safeguard Review Program in the future.160 TIGTA is concerned
that the potential for refund fraud and related schemes could increase as a result of
processing ACA Premium Tax Credits unless the IRS builds, implements, updates, and
embeds ACA predictive analytical fraud models into its tax-filing process.

Another serious challenge confronting the IRS is the Tax Gap. The most recent gross
Tax Gap estimate developed by the IRS was $450 billion for TY 2006, which represents
an increase from the prior estimate of $345 billion for TY 2001. The largest component
(approximately 84 percent) of the Tax Gap is based on taxpayers’ underreporting the
amount of taxes due. The IRS addresses this gap by attempting to identify questionable
tax returns when they are received and processed and by conducting examinations of tax
returns filed, to determine if there are any adjustments needed to the information reported
on the tax returns. To deter the underreporting of taxes, the IRS assessed over 500,000
accuracy-related penalties, involving over $1 billion, against individuals during FY 2011.

The scope, complexity, and magnitude of the international financial system also present
significant enforcement challenges for the IRS. The numbers of taxpayers conducting
international business transactions continues to grow as technological advances provide
opportunities for offshore investments that were once only possible for large corporations
and wealthy individuals. As this global economic activity increases, so do concerns
regarding the International Tax Gap.161 While the IRS has not developed an accurate and
reliable estimate of the International Tax Gap, non-IRS sources estimate it to be between
$40 billion and $133 billion annually.

The IRS also currently faces the challenge of implementing the Foreign Account Tax
Compliance Act (FATCA),162 which was enacted to combat tax evasion by U.S. persons
holding investments in offshore accounts. TIGTA reviewed the IRS’s new system that
was developed to support the requirements of FATCA and reported that the program
management control processes did not timely identify or communicate system design
changes to ensure its successful deployment.163



159
    TIGTA, Audit No. 201340335, Affordable Care Act: Accuracy of the Income and Family Size Verification
and
160
     Advanced Premium Tax Credit Calculation, report planned for May 2014.
    TIGTA, Audit No. 201420302, Security Over Federal Tax Data at Health Insurance Exchanges, report
planned
161
         for August 2014.
    Taxes owed but not collected on time from a U.S. person or foreign person whose cross-border
transactions
162
              are subject to U.S. taxation.
    Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010) (codified in scattered sections of 26
U.S.C.).
163
    TIGTA Ref. No. 2013-20-118, Foreign Account Tax Compliance Act: Improvements Are Needed to
Strengthen Systems Development for the Foreign Financial Institution Registration System (Sept. 2013).
54        October 1, 2013 – March 31, 2014
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


The IRS Whistleblower Program also plays an important role in reducing the Tax Gap and
maintaining the integrity of a voluntary tax compliance system. However, TIGTA reported
that the program continues to have internal control weaknesses when processing claims.
Without adequate oversight of the Whistleblower Program, the IRS is not as effective as it
could be in responding timely to tax noncompliance issues.164




164
   TIGTA, Ref. No. 2012-30-045, Improved Oversight Is Needed to Effectively Process Whistleblower
Claims (Apr. 2012).
                                                           October 1, 2013 – March 31, 2014         55
     TIGTA SEMIANNUAL REPORT TO CONGRESS




                            DIVIDER PAGE




56   October 1, 2013 – March 31, 2014
                         TIGTA SEMIANNUAL REPORT TO CONGRESS



                   TIGTA’s International Programs
TIGTA is committed to providing comprehensive oversight of IRS international programs
and operations by developing a strategy of international audit, inspection, and law
enforcement liaison and outreach. This strategy will enhance TIGTA’s capacity to execute
its oversight model in the international environment.

The United States taxes U.S. individuals and businesses on their worldwide income and
taxes foreign persons on their U.S. source income. International tax administration can be
divided into four general areas:

            U.S. business cross-border;
            Foreign business in the U.S.;
            Individual cross-border; and
            Foreign person with taxable U.S. income.

The tax law for cross-border transactions and investments can be highly complex and
specialized. Both businesses and individuals use partnerships and tiered structures for
business purposes and to obscure the beneficial owner of the assets.

The President, the Secretary of the Treasury, and the IRS Commissioner have placed
an emphasis on international tax compliance. Also, business tax reform discussions
include potential substantive changes to intercompany transfer pricing policy. In
addition, the IRS is implementing the Foreign Account Tax Compliance Act
(FACTA)165 to help prevent U.S. taxpayers from hiding assets offshore.

International Visitors
TIGTA’s international strategy includes engaging with foreign tax authorities in the sharing
of mutually beneficial strategies for providing oversight of the IRS and foreign national
revenue collection agencies.

During this six-month reporting period, TIGTA was very pleased to host delegations from
Cambodia, Sri Lanka, Colombia, Iraq, and Zambia. International visits with delegations
from other countries, administered in association with the IRS International Visitors
Program, serve to build working relationships and foster increased cooperation in the
arena of international tax administration.

In June 2013, TIGTA hosted a delegation from Cambodia led by Sim Eang, Director
General of the General Department of Taxation. Eang met with representatives from OI,
OA, and I&E to enhance his understanding of the mission and role of TIGTA, and of how
internal audits are conducted within the Department of the Treasury. The audit-centric


165
      Pub. L. No. 111-147, Subtitle A, 124 Stat 71, 96-116 (2010) (codified in scattered sections of 26 U.S.C.).
                                                                  October 1, 2013 – March 31, 2014            57
         TIGTA SEMIANNUAL REPORT TO CONGRESS


discussion provided the visiting delegation a better understanding of TIGTA’s role in our
Nation’s system of tax administration and its relationship with the IRS.

In September 2013, TIGTA hosted a delegation from Sri Lanka led by Ahmed Ali of the
Maldives Inland Revenue Authority. This delegation met with OI and OA to gain insight
with respect to how the United States oversees Federal tax administration, with the goal of
adopting best U.S. practices in the nation of Sri Lanka.

In November, the Secretary General of the Ministry of Finance and Public Credit from the
country of Colombia visited TIGTA to discuss better techniques to combat fraud, waste,
and abuse. After recently standing up the IG for Tax, Revenue and Contributions, the
Secretary General wanted to explore TIGTA’s Office of Investigations policies and
procedures for combating tax fraud.

In January, former Iraqi Inspector General Salem Ibrahim Poles met with Inspector
General George at TIGTA’s Headquarters location. Mr. Poles was a part of an Iraqi study
group sponsored by CIGIE. This group visited TIGTA in the latter part of January, hoping
to gather insight on how to strengthen Inspectors General positions in Iraq that
specifically deal with waste, fraud, and abuse.

In March, the Revenue Authority from the African country of Zambia visited TIGTA to
receive in-depth information from the Offices of Audit and Investigations on how to
combat corruption within the government.




58       October 1, 2013 – March 31, 2014
                           TIGTA SEMIANNUAL REPORT TO CONGRESS




                              Audit Statistical Reports
                        Reports With Questioned Costs
 TIGTA issued three audit reports with questioned costs during this semiannual reporting
 period.166 The phrase “questioned costs” means costs that are questioned because of:

           An alleged violation of a provision of a law, regulation, contract, or other requirement
            governing the expenditure of funds;
           A finding, at the time of the audit, that such cost is not supported by adequate
            documentation (an unsupported cost); or
           A finding that expenditure of funds for the intended purpose is unnecessary or
            unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the Government.

                                         Reports With Questioned Costs
                                                                            Questioned           Unsupported
                 Report Category                         Number               Costs167               Costs
                                                                          (in thousands)        (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                    7                   $38,822                   $928
2. Reports issued during the reporting period               3                    $6,492                     $0
3. Subtotals (Item 1 plus Item 2)                           10                  $45,314                   $928
4. Reports for which a management decision
   was made during the reporting period
   a. Value of disallowed costs                              1                      $21                    $0
   b. Value of costs not disallowed                          0                       $0                    $0
5. Reports with no management decision at
   the end of the reporting period (Item 3
   minus Item 4)                                             9                  $45,293                   $928
6. Reports with no management decision
   within six months of issuance                             7                  $38,822                   $928




 166
 167
       See Appendix II for identification of audit reports involved.
       “Questioned costs” includes “unsupported costs.”
                                                                       October 1, 2013 – March 31, 2014      59
                 TIGTA SEMIANNUAL REPORT TO CONGRESS


       Reports With Recommendations That Funds Be
                     Put to Better Use

 TIGTA issued three audit reports during this semiannual reporting period with the
 recommendation that funds be put to better use.168 The phrase “recommendation that
 funds be put to better use” means funds could be used more efficiently if management
 took actions to implement and complete the recommendation, including:
             Reductions in outlays;
             Deobligations of funds from programs or operations;
             Costs not incurred by implementing recommended improvements related to
              operations;
             Avoidance of unnecessary expenditures noted in pre-award reviews of contract
              agreements;
             Prevention of erroneous payment of refundable credits, e.g., the EITC; or
             Any other savings that are specifically identified.

 The phrase “management decision” means the evaluation by management of the findings
 and recommendations included in an audit report, and the issuance of a final decision
 concerning its response to such findings and recommendations, including actions
 deemed necessary.

                      Reports With Recommendations That Funds Be Put to Better Use
                                                                                     Amount
                               Report Category                         Number
                                                                                 (in thousands)
1. Reports with no management decision at the beginning of the
   reporting period                                                      0                  $0
2. Reports issued during the reporting period                            3              $1,528
3. Subtotals (Item 1 plus Item 2)                                        3              $1,528
4. Reports for which a management decision was made during the
   reporting period
   a. Value of recommendations to which management agreed
            i. Based on proposed management action                       2             $1,412
            ii. Based on proposed legislative action                     0                   $0
   b. Value of recommendations to which management did not agree         1               $117
5. Reports with no management decision at the end of the
   reporting period (Item 3 minus Item 4)169                             0                   $0
6. Reports with no management decision within six months of issuance     0                   $0




 168
 169
       See Appendix II for identification of audit reports involved.
       Difference in amount due to rounding.
 60              October 1, 2013 – March 31, 2014
                    TIGTA SEMIANNUAL REPORT TO CONGRESS


  Reports With Additional Quantifiable Impact on
               Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to executives at the
IRS and the Department of the Treasury, Members of Congress, and the taxpaying
public, and are expressed in quantifiable terms to provide further insight into the value
and potential impact of the Office of Audit’s products and services. Including this
information also promotes adherence to the intent and spirit of the Government
Performance and Results Act.

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Ensuring the accuracy of the total tax, penalties, and interest paid
to the Federal Government.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on, communication, record keeping, preparation, or
costs to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining the
accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and processing
thereof, used by the organization to plan, monitor, and report on its financial and
operational activities. This measure will often be expressed as an absolute value, i.e.,
without regard to whether a number is positive or negative, of overstatements or
understatements of amounts recorded on the organization’s documents or systems.

                                                    October 1, 2013 – March 31, 2014     61
               TIGTA SEMIANNUAL REPORT TO CONGRESS


Protection of Resources: Safeguarding human and capital assets, used by or in the
custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart
were derived from analyses of historical data and are thus considered potential
barometers of the impact of audit recommendations. Actual results will vary
depending on the timing and extent of management’s implementation of the
corresponding corrective actions, and the number of accounts or subsequent
business activities affected as of the dates of implementation. Also, a report may
have issues that affect more than one outcome measure category.


      Reports With Additional Quantifiable Impact on Tax Administration
                                                  Number of
                                Number of                           Dollar Value
 Outcome Measure Category                 170      Taxpayer
                                Reports                           (in thousands)
                                                   Accounts

Increased Revenue                                  3                  261,773    $295,429

Revenue Protection                                 3                  249,948   $1,970,370

Reduction of Burden on Taxpayers                   0                       0           $0
Taxpayer Rights and Entitlements
at Risk                                            0                       0           $0

Taxpayer Privacy and Security                      0                       0           $0

Inefficient Use of Resources                       1                       0      $11,649
Reliability of Management
Information                                        1                    9,057          $0

Protection of Resources                            0                       0           $0




Management did not agree with the outcome measures in the following reports:
          Increased Revenue: Reference Numbers 2014-10-008 and 2014-10-017;
          Revenue Protection: Reference Numbers 2014-10-008 and 2014-40-022; and
          Inefficient Use of Resources: Reference Number 2014-20-002.




170
      See Appendix II for identification of audit reports involved.
62            October 1, 2013 – March 31, 2014
                           TIGTA SEMIANNUAL REPORT TO CONGRESS



                 Investigations Statistical Reports

                                  Significant Investigative Achievements
                                           October 1, 2013 – March 31, 2014
           Complaints/Allegations Received by TIGTA
                Complaints against IRS Employees                                            2,096
                Complaints against Non-Employees                                            2,250
           Total Complaints/Allegations                                                    4,346

           Status of Complaints/Allegations Received by TIGTA
                Investigations Initiated                                                    1,028
                                            171
                In Process within TIGTA                                                      420
                Referred to IRS for Action                                                   541
                Referred to IRS for Information Only                                         750
                Referred to a Non-IRS Entity172                                                1
                Closed with No Referral                                                      896
                Closed Associated with Prior Investigation                                   598
                Closed with All Actions Completed                                            112
           Total Complaints                                                                4,346

           Investigations Opened and Closed
                Total Investigations Opened                                                 1,468
                Total Investigations Closed                                                 1,418

           Financial Accomplishments
                Embezzlement/Theft Funds Recovered                                          $510
                Contract Fraud and Overpayments Recovered                                     $0
                Court Ordered Fines, Penalties and Restitution                        $3,331,450
                Out-of-Court Settlements                                                      $0
           Total Financial Accomplishments                                           $3,331,960




171
172
      Complaints for which final determination had not been made at the end of the reporting period.
      A non-IRS entity includes other law enforcement entities or Federal agencies.
                                                                 October 1, 2013 – March 31, 2014      63
            TIGTA SEMIANNUAL REPORT TO CONGRESS




                                  Status of Closed Criminal Investigations
         Criminal Referral                                    Employee       Non-Employee     Total
             Referred – Accepted for Prosecution                  46              32            78
             Referred – Declined for Prosecution                 277             140           417
             Referred – Pending Prosecutorial Decision            45              26            71
                                      173                        368             198           566
         Total Criminal Referrals
         No Referral                                             421             458           879


                                            Criminal Dispositions174
         Criminal Disposition                                Employee        Non-Employee     Total
         Guilty                                                   21              28           49
         Nolo Contendere (no contest)                             3               1             4
         Pre-trial Diversion                                      3               1             4
                                175                               0               0             0
         Deferred Prosecution
         Not Guilty                                               0               0             0
         Dismissed                                                3               5             8
         Total Criminal Dispositions                              30              35           65


                      Administrative Dispositions on Closed Investigations176
         Administrative Disposition                                                           Total
         Removed / Terminated                                                                   27
         Suspended / Reduction in Grade                                                         83
         Resigned / Retired / Separated Prior to Adjudication                                   94
         Oral or Written Reprimand / Admonishment                                              116
         Clearance Letter / Closed, No Action Taken                                             96
         Alternative Discipline / Letter with Cautionary Statement / Other                     125
         Non-Employee Actions177                                                               328
         Total Administrative Dispositions                                                     869




173
174
    Criminal referrals include both Federal and State dispositions.
    Final criminal dispositions during the reporting period. These data may pertain to investigations referred
criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in
the Status of Closed Criminal Investigations table above.
175
    Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
complies with certain conditions imposed by the court. Upon the defendant’s completion of the conditions,
the court dismisses the case. If the defendant fails to fully comply, the court reinstates prosecution of the
charge.
176
    Final administrative dispositions during the reporting period. These data may pertain to investigations
referred administratively in prior reporting periods and do not necessarily relate to the investigations closed
in the Investigations Opened and Closed table. These data, as reported, reflect a change in the way
administrative dispositions were previously categorized.
177
    Administrative actions taken by the IRS against non-IRS employees.
64         October 1, 2013 – March 31, 2014
                      TIGTA SEMIANNUAL REPORT TO CONGRESS



          Inspections and Evaluations Statistical
                         Reports

                     Reports With Questioned Costs
TIGTA issued no inspection reports with questioned costs during this semiannual reporting
period. The phrase “questioned costs” means costs that are questioned because of:

         An alleged violation of a provision of a law, regulation, contract, or other requirement
          governing the expenditure of funds;
         A finding, at the time of the inspection, that such cost is not supported by adequate
          documentation (an unsupported cost); or
         A finding that expenditure of funds for the intended purpose is unnecessary or
          unreasonable.

The phrase “disallowed cost” means a questioned cost that management, in a
management decision, has sustained or agreed should not be charged to the Government.


                                      Report With Questioned Costs
                                                                                    Unsupported
               Report Category                 Number      Questioned Costs            Costs

 1. Reports with no management decision
    at the beginning of the reporting period      1              $197,416                   $7,163
 2. Reports issued during the reporting
    period                                        0                    $0                       $0
 3. Subtotals (Item 1 plus Item 2)                1              $197,416                   $7,163
 4. Reports for which a management
    decision was made during the reporting
    period178
 c. Value of disallowed costs                     1                     $0                  $6,897
 d. Value of costs not disallowed                 1              $197,416                     $266
 5. Reports with no management
    decision at the end of the reporting
    period (Item 3 minus Item 4)                  0                     $0                      $0
 6. Reports with no management decision
    within six months of issuance                 0                      0                       0




178
   TIGTA, Reference No. 2013-IE-R005, Inspection of the Internal Revenue Service’s Travel Gainsharing
Program (May 2013).
                                                           October 1, 2013 – March 31, 2014          65
              TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                    Appendix I
                               Statistical Reports – Other

      Audit Reports With Significant Unimplemented
                   Corrective Actions
 The Inspector General Act of 1978, as amended, requires identification of significant
 recommendations described in previous semiannual reports for which corrective actions have not
 been completed. The following list is based on information from the IRS Office of Management
 Control’s automated tracking system maintained by Treasury management officials.

                                                      Projected              Report Title and Recommendation Summary
                IRS Management
Reference                                            Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued          Date                                   P = Plan No.)
2009-10-121         Improving          September                  The Taxpayer Advocate Service Should Reevaluate the Roles of
                Performance and          2009                     Its Staff and Improve the Administration of the Taxpayer
                Financial Data for                                Advocacy Panel
               Program and Budget
                    Decisions                         09/30/14    F-2, R-1, P-1. Reevaluate the roles of the staff assigned to assist the
                                                                  Panel and establish guidance to ensure that the Panel functions
                                                                  independently.

2009-40-130    Processing Returns      September                  Repeated Efforts to Modernize Paper Tax Return Processing
                and Implementing         2009                     Have Been Unsuccessful; However, Actions Can Be Taken to
                Tax Law Changes                                   Increase Electronic Filing and Reduce Processing Costs
               During the Tax Filing
                     Season                           09/15/14    F-1, R-2, P-1. Refocus the Modernized Submission Processing
                                                                  Concept to include implementing a process to convert paper filed tax
                                                                  returns prepared by individuals using a tax preparation software
                                                                  package into an electronic format.

2010-20-027    Taxpayer Protection     March 2010                 Additional Security Is Needed For Access to the Registered User
                   and Rights                                     Portal

                                                      10/15/15    F-1, R-1, P-1. Require suitability checks on delegated users who
                                                                  e-file tax returns or access the e-Services incentive products and
                                                                  disable the principal consent feature on e-Services that allows a user to
                                                                  propagate his or her privileges to other users.
                                                      10/15/15    F-1, R-3, P-1. Enhance the e-file application on the Third Party Data
                                                                  Store to post the complete results of the Automated Suitability Analysis
                                                                  Program’s spouse tax compliance check.
                                                      09/15/14    F-1, R-5, P-1. Make passwords more difficult to guess by unauthorized
                                                                  individuals and decrease the use of SSNs as usernames.
                                                                  F-1, R-6, P-1. Implement a control to allow users to answer a series of
                                                      09/15/14    challenge questions to unlock their accounts.


2010-40-045     Security of the IRS    March 2010                 Telephone Authentication Practices Need Improvement to Better
                                                                  Prevent Unauthorized Disclosures

                                                      07/15/14    F-3, R-1, P-1. Incorporate available technology to authenticate callers
                                                                  in the queue as part of the development of the Authentication
                                                                  Retention Project.



 66           October 1, 2013 – March 31, 2014
                           TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
               IRS Management
Reference                                          Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued       Date                                    P = Plan No.)
2010-20-044   Modernization of the     May 2010                 Implementing Best Practices and Additional Controls Can
                     IRS                                        Improve Data Center Energy Efficiency and the Environmental
                                                                and Energy Program

                                                    07/30/14    F-1, R-2, P-1. Ensure information technology equipment energy use is
                                                                measured in order to determine the energy efficiency and savings from
                                                                implementing energy improvements.
                                                    11/15/14    F-1, R-5, P-1. Ensure energy audits are performed at the data centers.


2010-30-061       Taxpayer             June 2010                Plans Exist to Engage the Tax Preparer Community in Reducing
              Compliance Initiatives                            the Tax Gap; However, Enhancements Are Needed

                                                    06/30/14    F-1, R-1, P-1. Update the existing IRS Strategic Plan and ensure
                                                                strategic plans have all of the information in the plans as required by
                                                                the Government Performance and Results Act of 1993 and Office of
                                                                Management and Budget Circular A-11 (Preparation, Submission, and
                                                                Execution of the Budget).
                                                    06/30/14    F-2, R-1, P-1. Define and include in the IRS Strategic Plan sufficient
                                                                measures that will provide data that can be used to monitor the IRS’s
                                                                efforts to achieve objectives aimed at strengthening partnerships with
                                                                tax practitioners and paid preparers to ensure effective tax
                                                                administration.

2011-40-023      Erroneous and         February                 Reduction Targets and Strategies Have Not Been Established to
               Improper Payments        2011                    Prevent the Issuance of Billions of Dollars in Improper Earned
                  and Credits                                   Income Tax Credit Payments Each Year

                                                    09/15/14    F-1, R-1, P-1. Establish quantifiable reduction targets and strategies to
                                                                meet those targets.

2011-20-046    Security of the IRS     May 2011                 Access Controls for the Automated Insolvency System Need
                                                                Improvement

                                                    11/15/16    F-1, R-1, P-1. Identify incompatible duties and implement policies to
                                                                segregate those duties, issue a memorandum to program managers
                                                                requiring them to adhere to the new policy when assigning duties and
                                                                approving Automated Insolvency System access privileges, and
                                                                designate a limited number of employees to perform the User
                                                                Administrator duties.

2011-40-058     Providing Quality      July 2011                Taxpayers Do Not Always Receive Quality Responses When
                Taxpayer Service                                Corresponding About Tax Issues

                                                    01/15/15    F-1, R-3, P-1. Complete the study of the interim letters to ensure that
                                                                they are strategically timed, alert taxpayers of delays and provide
                                                                taxpayers with an accurate status and time period for case resolution,
                                                                provide taxpayers with sufficient information to deter them from using
                                                                other channels to contact the IRS regarding their case, and are clear
                                                                and concise.

2012-40-010     Tax Compliance         December                 More Tax Return Preparers Are Filing Electronically, but Better
                   Initiatives           2011                   Controls Are Needed to Ensure All Are Complying With the New
                                                                Preparer Regulations

                                                    07/15/14    F-3, R-1, P-1. Implement a process to identify a tax return that is
                                                                submitted with a Preparer TIN that is being used by someone other
                                                                than the authorized preparer.




                                                                  October 1, 2013 – March 31, 2014                          67
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                 Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                        Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                              Issued        Date                                    P = Plan No.)
2012-13-070    Implementing Major   June 2012                 Affordable Care Act: While Much Has Been Accomplished, the
                Tax Law Changes                               Extent of Additional Controls Needed to Implement Tax-Exempt
                                                              Hospital Provisions Is Uncertain

                                                  07/31/14    F-1, R-1, P-1. Establish a Memorandum of Understanding with HHS
                                                              that takes into consideration when information for the annual report to
                                                              Congress should be received and the proper format of the data to
                                                              ensure it will be timely and usable for the report to Congress.


2012-30-094      Tax Compliance     September                 A Concerted Effort Should Be Taken to Improve Federal
                    Initiatives       2012                    Government Agency Tax Compliance

                                                  04/15/14    F-1, R-4, P-1. Ensure that Federal Agency Delinquency (FAD)
                                                              Program employees adhere to procedures when processing
                                                              delinquent Federal agency cases.
                                                  04/15/14    F-1, R-5, P-1. Establish timeliness standards for FAD Program
                                                              employees to follow when processing Federal agency delinquency
                                                              cases.

2012-30-097      Tax Compliance     September                 Actions Are Needed to Ensure Audit Results Post Timely and
                    Initiatives       2012                    Accurately to Taxpayer Accounts

                                                  05/15/14    F-1, R-1, P-2. Develop and implement additional procedures to ensure
                                                              that all audits entering the Campus Case Processing operation with
                                                              short statute expiration dates and large dollar assessment amounts are
                                                              timely and accurately assigned and processed in accordance with
                                                              applicable procedures.
                                                  05/15/14    F-1, R-2, P-1. Conduct a cost-benefit analysis to determine whether it
                                                              would be beneficial to develop and implement systematic controls to
                                                              ensure that the required quick assessments are performed on large
                                                              dollar audits.
2012-11-101     Fraudulent Claims   September                 Deficiencies Continue to Exist in Verifying Contractor Labor
                  and Improper        2012                    Charges Prior to Payment
                    Payments
                                                  07/15/14    F-1, R-2, P-1. Ensure the validity of all labor charges for the
                                                              procurement in which TIGTA identified as having a total of $394,430 in
                                                              unsupported labor charges. Actions should be initiated to recover any
                                                              funds identified as being paid erroneously.

2013-40-009     Fraudulent Claims   December                  Many Taxpayers Are Still Not Complying With Noncash
                  and Improper        2012                    Charitable Contribution Reporting Requirements
                    Payments
                                                  11/15/14    F-1, R-2, P-1. Capture the contribution date, donee signature and/or
                                                              acknowledgement date, and Declaration of Appraiser, and type of
                                                              property donated from Forms 8283 and develop processes to use the
                                                              information to ensure that taxpayers are meeting the requirements for
                                                              claiming deductions for noncash charitable contributions.

2013-40-011     Fraudulent Claims   December                  Further Efforts Are Needed to Ensure the Internal Revenue
                  and Improper        2012                    Service Prisoner File is Accurate and Complete
                    Payments
                                                  04/15/14    F-1, R-1, P-1. Ensure the validation and verification of future IRS
                                                              prisoner files to include a check for prisoners using deceased
                                                              individual’s identity information.




 68           October 1, 2013 – March 31, 2014
                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
              IRS Management
Reference                                          Completion               (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued        Date                                     P = Plan No.)
2013-40-022    Fraudulent Claims       February                 Taxpayer Referrals of Suspected Tax Fraud Result in Tax
                 and Improper           2013                    Assessments, but Processing of the Referrals Could Be Improved
                   Payments
                                                                F-1, R-5, P-1. Assess the value of the Information Referral (Form
                                                    01/15/15    3949-A) program once the IRS implements the corrective actions
                                                                resulting from the previous TIGTA report, reassess the emphasis
                                                                placed on the program, and prioritize it as needed.

2013-20-023   Security for Taxpayer    February                 Improvements Are Needed to Ensure the Effectiveness of the
              Data and Employees        2013                    Privacy Impact Assessment Process

                                                    07/15/14    F-1, R-1, P-1. Investigate all 184 information systems and collections
                                                                of information identified and coordinate with system owners to
                                                                complete the required Privacy Impact Assessments (PIA).
                                                    07/15/14    F-1, R-2, P-1. Establish an annual reconciliation process in which the
                                                                PIA inventory is reconciled with all information systems and collections
                                                                of information in the current production environment, and the
                                                                completion of the planned revisions to the Major Change
                                                                Determination template, which will help facilitate the annual
                                                                reconciliation process, and a process to identify all completed and
                                                                approved PIAs that have not been updated within three years and
                                                                coordinate with system owners to review and updated these PIAs as
                                                                required.


2013-30-021     Tax Compliance         February                 The Compliance Assurance Process Has Received Favorable
                   Initiatives          2013                    Feedback, but Additional Analysis of Its Costs and Benefits Is
                                                                Needed

                                                    07/15/14    F-1, R-1, P-1. Ensure that an evaluation plan is developed and
                                                                implemented to thoroughly assess the Compliance Assurance Process
                                                                (CAP). At a minimum, the evaluation plan should include clearly stated
                                                                objectives that measure success against well-defined standards and
                                                                detailed steps for verifying that sufficient benefits are being realized in
                                                                relation to the costs being incurred.
2013-30-020     Tax Compliance        March 2013                Actions Can Be Taken to Reinforce the Importance of
                   Initiatives                                  Recognizing and Investigating Fraud Indicators During Office
                                                                Audits

                                                    09/15/14    F-1, R-1, P-1. Standardize the process for office audit examiners’
                                                                documentation of fraud consideration by developing and implementing
                                                                a specific job aid that requires examiners to acknowledge which
                                                                indicators, if any, were considered during the audit.


2013-30-021     Tax Compliance        March 2013                The Compliance Assurance Process Has Received Favorable
                   Initiatives                                  Feedback, but Additional Analysis of Its Costs and Benefits Is
                                                                Needed

                                                    04/15/14    F-1, R-1, P-1. Ensure that an evaluation plan is developed and
                                                                implemented to thoroughly assess the CAP. At a minimum, the
                                                                evaluation plan should include clearly stated objectives that measure
                                                                success against well-defined standards and detailed steps for verifying
                                                                that sufficient benefits are being realized in relation to the costs being
                                                                incurred.
                                                    04/15/14    F-2, R-1, P-1. Ensure that the guidelines are used to evaluate the
                                                                CAP as a potential new user fee source.




                                                                  October 1, 2013 – March 31, 2014                            69
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                          Completion              (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued       Date                                   P = Plan No.)
2013-30-040      Tax Compliance        May 2013                 Controls Over Partial Payment Installment Agreements Can Be
                    Initiatives                                 Improved

                                                   6/15/2014    F-2, R-1, P-1. Ensure that managers provide their employees with
                                                                Integrated Data Retrieval System profiles that contain the command
                                                                codes required to perform their duties and ensure that managers are
                                                                knowledgeable of the command codes and how they can be used to
                                                                enhance the financial analyses performed by employees establishing
                                                                Partial Payment Installment Agreements.

2013-20-013     Achieving Program      June 2013                The Data Center Consolidation Initiative Has Made Significant
               Efficiencies and Cost                            Progress, but Program Management Should Be Improved to
                      Savings                                   Ensure Goals Are Achieved

                                                   4/25/2015    F-1, R-3, P-1. Ensure that the Detroit Enterprise Computer Center is
                                                                consolidated into the Martinsburg and Memphis Enterprise Computer
                                                                Centers.
                                                   5/25/2014    F-2, R-2, P-1. Formalize plans to develop and apply a baseline
                                                                footprint to the IRS’s small data centers.

2013-10-056     Fraudulent Claims      June 2013                Purchase Card Program Lacks Consistent Oversight to Identify
                  and Improper                                  and Address Inappropriate Use
                    Payments
                                                   4/15/2014    F-4, R-3, P-1. Develop and implement a plan to replace the use of
                                                                convenience checks for emergency salary payments, travel advances,
                                                                Public Transportation Subsidy Program payments, and other employee
                                                                reimbursements prior to the 2014 expiration of the waiver allowing the
                                                                use of convenience checks.

2013-30-077      Tax Compliance         August                  The Correspondence Audit Selection Process Could Be
                    Initiatives          2013                   Strengthened

                                                   9/15/2014    F-1, R-1, P-1. Develop and implement procedures in the Internal
                                                                Revenue Manual that instruct how current year correspondence audit
                                                                results are to be used in deciding whether the prior and/or subsequent
                                                                year tax returns warrant an audit.

2013-10-082      Tax Compliance         August                  Contractor Employees Have Millions of Dollars of Federal Tax
                    Initiatives          2013                   Debts

                                                   8/01/2014    F-1, R-1, P-1. Establish and implement policies and procedures to
                                                                ensure that contractor employee tax compliance is continuously
                                                                monitored, similar to the way IRS Federal employee tax compliance is
                                                                monitored.
                                                   7/15/2014    F-1, R-2, P-1. Establish and implement policies and procedures to
                                                                require that contractor employee background investigation
                                                                revalidations, which occur when a contractor employee has had two-
                                                                years or more break in service, requires a tax compliance component.
                                                   7/15/2014    F-1, R-3, P-1. Ensure that any contractor employee we identified as
                                                                potentially non-compliant is further evaluated and that any contractor
                                                                employee who is not tax compliant is promptly brought into compliance
                                                                or removed from IRS contracts.




 70           October 1, 2013 – March 31, 2014
                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                  Projected                Report Title and Recommendation Summary
              IRS Management
Reference                                         Completion               (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued       Date                                     P = Plan No.)
2013-20-108   Security for Taxpayer   September                Better Cost-Benefit Analysis and Security Measures Are Needed
              Data and Employees        2013                   for the Bring Your Own Device Pilot

                                                  11/25/2014   F-2, R-1, P-1. Ensure Bring Your Own Device users are allowed
                                                               access only to e-mail functions in most cases, and ensure that users
                                                               provided additional access to IRS network resources demonstrate a
                                                               compelling business need for that increased access, especially
                                                               considering that laptops already have full functionality on the IRS
                                                               network.
                                                  2/25/2015    F-2, R-3, P-1. Ensure that the existing IRS policy related to audit trails
                                                               is followed, including retaining the audit trails daily to identify anomalies
                                                               that could indicate unauthorized access attempts or security breaches.
                                                               F-2, R-4, P-1. Provide periodic refresher training for Bring Your Own
                                                  2/25/2015    Device participants that clearly explain the risks associated with
                                                               personal mobile devices.


2013-23-119   Implementing Major      September                Affordable Care Act: Improvements Are Needed to Strengthen
               Tax Law Changes          2013                   Systems Development Controls for the Premium Tax Credit
                                                               Project

                                                  9/25/2014    F-4, R-1, P-1. Ensure that the Internal Revenue Manual is updated to
                                                               provide specific guidance on how IRS management is to effectively
                                                               manage, monitor, and mitigate fraud risk for information technology
                                                               systems.

2013-30-121     Tax Compliance        September                The Online Payment Agreement Program Benefits Taxpayers and
                   Initiatives          2013                   the Internal Revenue Service, But More Could Be Done to Expand
                                                               Its Use

                                                  5/15/2015    F-1, R-1, P-1. Measure Online Payment Agreement (OPA) program
                                                               performance results against OPA program goals and manage the
                                                               program to achieve those goals.
                                                  5/15/2015    F-2, R-2, P-1. Perform an evaluation of installment agreement
                                                               programs, including the OPA program, to identify barriers to using the
                                                               OPA program and determine the reasons taxpayers used the methods
                                                               they did to establish their payment agreements.
2013-40-122    Fraudulent Claims      September                Detection Has Improved; However, Identity Theft Continues to
                 and Improper           2013                   Result in Billions of Dollars in Potentially Fraudulent Tax Refunds
                   Payments
                                                               F-1, R-1, P-1. Implement a process to deactivate Individual TINs
                                                  6/15/2017    assigned to individuals prior to January 1, 2013, who no longer have a
                                                               tax filing requirement.
                                                               F-2, R-1, P-1. Continue to analyze characteristics of fraudulent tax
                                                  10/15/2014   returns resulting from identity theft to refine and expand identity theft
                                                               filters used to detect and prevent the issuance of fraudulent tax refunds
                                                               resulting from identity theft.


2013-40-123    Fraudulent Claims      September                The Law Which Penalizes Erroneous Refund and Credit Claims
                 and Improper           2013                   Was not Properly Implement
                   Payments
                                                  10/15/2014   F-1, R-1, P-1. Develop processes and procedures to enable Campus
                                                               Operations to assess the erroneous refund penalty for disallowed
                                                               credit claims that are excessive and do not have a reasonable basis.




                                                                 October 1, 2013 – March 31, 2014                              71
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                 Projected               Report Title and Recommendation Summary
                IRS Management
Reference                                        Completion               (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                               Issued       Date                                    P = Plan No.)
2013-40-124      Tax Compliance      September                Late Legislation Delayed the Filing of Tax Returns and Issuance
                    Initiatives        2013                   of Refunds for the 2013 Filing Season

                                                 5/15/2014    F-1, R-1, P-1. Ensure that the EITC due diligence penalty is assessed
                                                              against tax return preparers who did not comply with the requirement
                                                              to attach a Paid Preparer’s EITC Checklist (Form 8867) to tax returns
                                                              with a claim for the EITC.
                                                 1/15/2015    F-2, R-2, P-1. Initiate a program to recover the more than $58 million
                                                              from the 42,961 taxpayers who received education credits for students
                                                              who were of an unlikely age to be eligible for the credits.
                                                 10/15/2014   F-3, R-3, P-1. Initiate a program to correct the 239 taxpayer accounts
                                                              where the IRS incorrectly recorded the transfer of the net Homebuyer
                                                              Credit repayment obligation in the case of a divorce.
                                                 2/15/2016    F-4, R-1, P-1. Establish procedures to ensure that the Vehicle
                                                              Identification Numbers (VIN) provided for each vehicle is 17 characters
                                                              long and, using the characteristics of the VIN, ensure that the vehicle is
                                                              eligible before allowing the Plug-In Motor Vehicle Motor Credit.
                                                 3/15/2015    F-4, R-2, P-1. Initiate a program to recover the erroneous Plug-In
                                                              Motor Vehicle Credits the IRS allowed on the 574 tax returns we
                                                              identified.



2013-40-129      Providing Quality   September                Case Processing Delays and Tax Account Errors Increased
                Taxpayer Services      2013                   Hardship for Victims of Identity Theft

                                                 3/15/2015    F-2, R-1, P-1. Develop a standard format for information provided for
                                                              inclusion in the Global Report to ensure consistency.




 72           October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


                                 Other Statistical Reports

                 The Inspector General Act of 1978 requires Inspectors General

                                  to address the following issues:

                         Issue                                          Result for TIGTA


Access to Information
Report unreasonable refusals of information            As of March 31, 2014, there were no
available to the agency that relate to programs and    instances where information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.

Disputed Audit Recommendations
                                                       As of March 31, 2014, there were no instances
Provide information on significant management          where significant recommendations were
decisions in response to audit recommendations with    disputed.
which the Inspector General disagrees.

Revised Management Decisions
Provide a description and explanation of the           As of March 31, 2014, no significant
reasons for any significant revised management         management decisions were revised.
decisions made during the reporting period.

Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of March 31, 2014, there were no prior
Provide a summary of each audit report issued          reports where management’s response was
before the beginning of the current reporting period   not received.
for which no management response has been
received by the end of the current reporting period.

Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and           114 proposed regulations and legislative
regulations, and make recommendations concerning       requests during this reporting period.
the impact of such legislation or regulations.




                                                              October 1, 2013 – March 31, 2014         73
            TIGTA SEMIANNUAL REPORT TO CONGRESS


                Inspection Reports With Significant
                Unimplemented Corrective Actions
The Inspector General Act of 1978, as amended, requires identification of significant
recommendations described in previous semiannual reports for which corrective actions have not
been completed. The following list is based on information from the IRS Office of Management
Control’s automated tracking system maintained by Treasury management officials.

                                               Projected             Report Title and Recommendation Summary
              IRS Management
Reference                                      Completion             (F = Finding No., R = Recommendation No.,
              Challenge Area
 Number                         Issued           Date                                 P = Plan No.)
 2011-IE-                      June 2011                    Follow-up Review of Controls Over Religious Compensatory
  R004                                                      Time

                                               9/30/2014    F-1, R-1, P-1. The IRS Human Capital Officer should modify the
                                                            IRS RCT procedures to require that all employees (bargaining
                                                            unit and non-bargaining unit) repay advanced RCT before a
                                                            manager can approve employees’ voluntary requests to earn
                                                            overtime, compensatory time, or credit hours.
                                               9/30/2014    F-1, R-2, P-1. The IRS Human Capital Officer should modify the
                                                            IRS RCT procedures to require that all employees (bargaining
                                                            unit and non-bargaining unit) submit written requests to earn or
                                                            use RCT, and develop a standard form for requesting,
                                                            authorizing, and documenting the use of RCT.

 2013-IE-                      May 2013                     Inspection of the Internal Revenue Service’s Travel
  R005                                                      Gainsharing Program

                                               7/15/2014    F-1, R-1, P-1. The CFO should amend the IRM to better define
                                                            document retention standards for gainsharing program awards
                                                            and supporting documentation to match that of other travel
                                                            documents. The IRM should also either require that each
                                                            business unit establish a centralized repository for gainsharing
                                                            program award documentation, or establish a centralized
                                                            repository within the office of the CFO for all gainsharing
                                                            program award documentation generated Service-wide.
                                               7/15/2014    F-2, R-1, P-1. The CFO should revise Form 13631-A to include
                                                            a space for the first-level manager’s initials.
                                               7/15/2014    F-2, R-1, P-2. The CFO should revise Form 13631-A to include
                                                            a space for the first-level manager’s initials.
                                               7/15/2014    F-2, R-2, P-1. The CFO should clarify in the IRM that only one
                                                            award can be given to employees per fiscal year.

 2013-IE-                      July 2013                    Review of the Implementation of the Telework Enhancement
  R006                                                      Act of 2010

                                               10/15/2014   F-1, R-1, P-1. The IRS Human Capital Officer should revise the
                                                            IRS’s telework policy to indicate that a non-bargaining unit
                                                            employee with an approved telework agreement can be
                                                            expected to telework outside his or her normal telework schedule
                                                            in the case of an emergency situation.
                                               10/15/2014   F-1, R-2, P-1. The IRS Human Capital Officer should require
                                                            that telework agreements include specific language on whether
                                                            the employee is expected to telework when the office is closed
                                                            due to an emergency.




74          October 1, 2013 – March 31, 2014
                    TIGTA SEMIANNUAL REPORT TO CONGRESS


                                      Projected             Report Title and Recommendation Summary
            IRS Management
Reference                             Completion             (F = Finding No., R = Recommendation No.,
            Challenge Area
 Number                      Issued     Date                                 P = Plan No.)
 2013-IE-                    August                The Internal Revenue Service Needs to Improve the
  R008                        2013                 Comprehensiveness, Accuracy, Reliability, and Timeliness
                                                   of the Tax Gap Estimate

                                      1/15/2015    F-1, R-1, P-1. The Director, Office of RAS, should conduct a
                                                   study to determine the feasibility of providing interim updates to
                                                   Tax Gap estimates. More frequent updates would facilitate tax
                                                   system decision making and assist the Department of the
                                                   Treasury in monitoring the Agency Priority Goal for increasing
                                                   voluntary compliance.
                                      1/15/2017    F-2, R-1, P-1. The Director, Office of RAS, should develop
                                                   processes and procedures to ensure compliance with applicable
                                                   OMB standards to improve the overall confidence that can be
                                                   placed in the accuracy and reliability of the Tax Gap estimate.
                                                   This includes developing a method to estimate the total costs for
                                                   performing each Tax Gap estimate and study. This information
                                                   will assist decision makers in determining the methods and
                                                   frequency of future studies.
                                      1/15/2016    F-2, R-2, P-1. The Director, Office of RAS, should issue a
                                                   published report to explain the methods, assumptions, and
                                                   premises used to develop the estimates. Furthermore, the report
                                                   should also include comments about the confidence of the
                                                   reliability and accuracy of the estimate and comparisons with
                                                   previous estimates. The report should specifically state
                                                   instances where no estimates have been developed and whether
                                                   the absence of an estimate could affect the final estimate and the
                                                   VCR. Finally, the report should be subject to peer review.
                                                   F-3, R-1, P-1. The Director, Office of RAS, should develop the
                                      1/15/2015    capability to estimate the Tax Gap for the informal economy. The
                                                   information developed can then be used by tax policy decision
                                                   makers and tax administration officials to develop strategies to
                                                   improve voluntary compliance.
                                                   F-3, R-2, P-1. The Director, Office of RAS, should perform a
                                      1/15/2015    study to determine the feasibility to estimate the Tax Gap for
                                                   offshore tax evasion. The information developed can then be
                                                   used by tax policy decision makers and tax administration
                                                   officials to develop strategies to improve voluntary compliance.




                                                     October 1, 2013 – March 31, 2014                      75
            TIGTA SEMIANNUAL REPORT TO CONGRESS


                                               Projected             Report Title and Recommendation Summary
              IRS Management
Reference                                      Completion             (F = Finding No., R = Recommendation No.,
              Challenge Area
 Number                         Issued           Date                                 P = Plan No.)
                                               1/15/2015    F-4, R-1, P-1. The Director, Office of RAS, should consider
                                                            changing the estimation model for large corporations from using
                                                            recommended tax to using tax assessments from operational
                                                            examinations to more clearly reflect the noncompliance found
                                                            and ultimately sustained on large corporate examinations.
                                               1/15/2016    F-4, R-2, P-1. The Director, Office of RAS, should consider
                                                            conducting an NRP review on small corporations filing Form
                                                            1120, U.S. Corporate Income Tax Return, with total assets of
                                                            less than $10 million. This will allow the IRS to more accurately
                                                            model the small corporate Tax Gap by using a random sample
                                                            results partnered with the DCE method. Subsequently, the IRS
                                                            could use the results of the NRP to better calibrate the yield
                                                            curve analysis results used to estimate the small corporate Tax
                                                            Gap in future years. A small corporation NRP can also deliver
                                                            other benefits, such as: Updating small corporation discriminant
                                                            function selection formulas so that they reflect how small
                                                            corporations operate in the 21st Century rather than the latter
                                                            half of the 20th Century. Such updated discriminant function
                                                            formulas should impact the selection of returns by reducing the
                                                            no-change rate, which will increase the yield per return. This will
                                                            allow the IRS Examination function to operate more efficiently
                                                            and effectively. Developing information, specifically on total
                                                            gross receipts, to allow the IRS to differentiate and target small
                                                            corporations that act similar to noncompliant sole proprietorships
                                                            from other small corporations. Such information would allow the
                                                            IRS to identify and concentrate resources on the small
                                                            corporations that act in a similar manner to sole proprietorships
                                                            and seek to evade taxes through understating income or
                                                            overstating expenses. Identifying the characteristics (asset
                                                            levels, gross receipts, number of employees, public/private
                                                            ownership, etc.) at which small C corporations cease to behave
                                                            like sole proprietorships and start to behave more like large and
                                                            mid-size corporations. This will allow the IRS to implement more
                                                            sophisticated examinations techniques and to match appropriate
                                                            examiner skill levels to corporations under examination.




76          October 1, 2013 – March 31, 2014
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



                                     Appendix II
                      Audit Products
              October 1, 2013 – March 31, 2014

                                      Audit Products
 Reference
  Number                                          Report Title
              October 2013
              N/A
              November 2013
2014-1C-001   Incurred Costs Audit for Fiscal Year 2006 (Questioned Costs: $20,936)
              December 2013
2014-1C-003   Fiscal Year 2006 Incurred Cost Submission (Questioned Costs: $1,052)
              Affordable Care Act: The Customer Service Strategy Sufficiently Addresses Tax
2014-43-006
              Provisions; However, Changes in Implementation Will Create Challenges
              January 2014
              Potentially Improper Health Care Credit Claims by Tax-Exempt Organizations Are
2014-13-005   Generally Being Identified for Review, but Improvements Are Needed (Funds Put to
              Better Use: $116,595; Reliability of Information: 9,057 taxpayer accounts impacted)
              Review of the Internal Revenue Service’s Purchase Card Violations Report and the
2014-10-014
              Status of Government Charge Card Recommendations
              Independent Attestation Review of the Internal Revenue Service’s Fiscal Year 2013
2014-10-015
              Annual Accounting of Drug Control Funds and Related Performance
              February 2014
              Processes for Ensuring Compliance With Qualifying Advanced Energy Project Credit
2014-40-011
              Requirements Can Be Strengthened (Revenue Protection: $2,399,846)
              The Internal Revenue Service Should Improve Mainframe Software Asset
2014-20-002   Management and Reduce Costs (Inefficient Use of Resources: $11,649,342; Funds
              Put to Better Use: $50,000)
              Planning Is Underway for the Enterprise-wide Transition to Internet Protocol Version 6,
2014-20-016
              but Further Actions Are Needed
              March 2014
              Independent Audit of the Contractor’s Civil Home Office Fiscal
2014-1C-004
              Year 2007 Incurred Cost (Revised)
              Bankruptcy Procedures Designed to Protect Taxpayer Rights and the Government’s
2014-30-013
              Interest Were Not Always Followed
              Improvement Is Needed to Better Enable Frontline Employee Identification of
2014-40-020
              Potentially Dangerous and Caution Upon Contact Designations
              Millions of Dollars in Potentially Improper Self-Employed Retirement Plan Deductions
2014-10-008
              Are Allowed (Revenue Protection: $71,409,000)
2014-1C-009   Independent Audit of the Contractor’s Fiscal Year 2006 Incurred Cost Submission
              Independent Audit of the Contractor’s Incurred Cost Proposal for Fiscal Year Ending
2014-1C-018
              March 30, 2007 (Questioned Costs: $6,470,339)


                                                           October 1, 2013 – March 31, 2014             77
          TIGTA SEMIANNUAL REPORT TO CONGRESS

               The Awards Program Complied With Federal Regulations, but Some Employees With
2014-10-007
               Tax and Conduct Issues Received Awards (Funds Put to Better Use: $1,361,805)
               Millions of Dollars in Potentially Improper Claims for the Qualified Retirement Savings
2014-10-017    Contributions Credit Are Not Pursued (Increased Revenue: $264,400,745 and
               260,461 taxpayer accounts impacted)
2014-40-029    Interim Results of the 2014 Filing Season
               The Internal Revenue Service Fiscal Year 2013 Improper Payment Reporting
2014-40-027
               Continues to Not Comply With the Improper Payments Elimination and Recovery Act
               Significant Discrepancies Exist Between Alimony Deductions Claimed by Payers and
2014-40-022    Income Reported by Recipients (Increased Revenue: $1,624,500; Revenue
               Protection: $1,896,560,915 and 236,708 taxpayer accounts impacted)




78       October 1, 2013 – March 31, 2014
                          TIGTA SEMIANNUAL REPORT TO CONGRESS



                                        Appendix III

       TIGTA’s Statutory Reporting Requirements
TIGTA issued two audit reports required by statute dealing with the adequacy and security of
IRS technology during this reporting period. In FY 2014, TIGTA will complete its 16th round
of statutory reviews that are required annually by RRA 98. It also completed its annual
reviews of the Federal Financial Management Improvement Act (FFMIA) of 1996, the Office
of National Drug Control Policy (ONDCP) Detailed Accounting Submission and Assertions,
and the Improper Payments Elimination and Recovery Act of 2010 (IPERA). The following
table reflects the FY 2014 statutory reviews.

       Reference to                  Explanation of the                     Comments/TIGTA Audit
    Statutory Coverage                   Provision                                Status

   Enforcement Statistics         Requires TIGTA to evaluate the         In fieldwork phase.
                                  IRS’s compliance with
   I.R.C. § 7803(d)(1)(A)(i)      restrictions under RRA 98 §
                                  1204 on the use of enforcement
                                  statistics to evaluate IRS
                                  employees.




   Restrictions on Directly       Requires TIGTA to evaluate the         In fieldwork phase.
   Contacting Taxpayers           IRS’s compliance with restrictions
                                  under I.R.C. § 7521 on directly
   I.R.C. § 7803(d)(1)(A)(ii)     contacting taxpayers who have
                                  indicated they prefer their
                                  representatives be contacted.



   Filing of a Notice of Lien     Requires TIGTA to evaluate the         In fieldwork phase.
                                  IRS’s compliance with required
   I.R.C. § 7803(d)(1)(A)(iii)    procedures under I.R.C. § 6320
                                  upon the filing of a notice of lien.



   Extensions of the Statute of   Requires TIGTA to include              In fieldwork phase.
   Limitations for Assessment     information regarding extensions
   of Tax                         of the statute of limitations for
                                  assessment of tax under
   I.R.C. § 7803(d)(1)(C)         I.R.C. § 6501 and the provision
                                  of notice to taxpayers regarding
   I.R.C. § 6501(c)(4)(B)         the right to refuse or limit the
                                  extension to particular issues or
                                  a particular period of time.




                                                                     October 1, 2013 – March 31, 2014   79
              TIGTA SEMIANNUAL REPORT TO CONGRESS


         Reference to                      Explanation of the                      Comments/TIGTA Audit
      Statutory Coverage                       Provision                                 Status

     Levies                             Requires TIGTA to evaluate the          In fieldwork phase.
                                        IRS’s compliance with required
     I.R.C. § 7803(d)(1)(A)(iv)         procedures under I.R.C. § 6330
                                        regarding levies.



     Collection Due Process             Requires TIGTA to evaluate the          In fieldwork phase.
                                        IRS’s compliance with required
     I.R.C. §§ 7803(d)(1)(A)(iii) and   procedures under I.R.C. §§ 6320
     (iv)                               and 6330 regarding taxpayers’
                                        rights to appeal lien or levy
                                        actions.



     Seizures                           Requires TIGTA to evaluate the          In fieldwork phase.
                                        IRS’s compliance with required
     I.R.C. § 7803(d)(1)(A)(iv)         procedures under I.R.C. §§ 6330
                                        through 6344 when conducting
                                        seizures.



     Taxpayer Designations –            An evaluation of the IRS’s              In fieldwork phase.
     Illegal Tax Protester              compliance with restrictions
     Designation and Nonfiler           under RRA 98 § 3707 on
     Designation                        designation of taxpayers.

     I.R.C. § 7803(d)(1)(A)(v)



     Disclosure of Collection           Requires TIGTA to review and            In fieldwork phase.
     Activities With Respect to         certify whether the IRS is
     Joint Returns                      complying with I.R.C.
                                        § 6103(e)(8) to disclose
     I.R.C. § 7803(d)(1)(B)             information to an individual filing a
                                        joint return on collection activity
     I.R.C. § 6103(e)(8)                involving the other individual filing
                                        the return.



     Taxpayer Complaints                Requires TIGTA to include in each       In fieldwork phase.
                                        of its Semiannual Reports to
     I.R.C. § 7803(d)(2)(A)             Congress the number of taxpayer
                                        complaints received and the
                                        number of employee misconduct
                                        and taxpayer abuse allegations
                                        received by IRS or TIGTA from
                                        taxpayers, IRS employees and
                                        other sources.




80            October 1, 2013 – March 31, 2014
                     TIGTA SEMIANNUAL REPORT TO CONGRESS


    Reference to                   Explanation of the                     Comments/TIGTA Audit
 Statutory Coverage                    Provision                                Status

Administrative or Civil         Requires TIGTA to include              In fieldwork phase.
Actions With Respect to the     information regarding any
Fair Tax Collection Practices   administrative or civil actions with
Act of 1996                     respect to violations of the fair
                                debt collection provision of I.R.C.
I.R.C. § 7803(d)(1)(G)          § 6304, including a summary of
                                such actions and any resulting
I.R.C. § 6304                   judgments or awards granted.

RRA 98 § 3466



Denial of Requests for          Requires TIGTA to include              In fieldwork phase.
Information                     information regarding improper
                                denial of requests for information
I.R.C. § 7803(d)(1)(F)          from the IRS, based on a
                                statistically valid sample of the
I.R.C. § 7803(d)(3)(A)          total number of determinations
                                made by the IRS to deny written
                                requests to disclose information to
                                taxpayers on the basis of I.R.C.
                                § 6103 or 5 U.S.C. § 552(b)(7).




Adequacy and Security of the    Requires TIGTA to evaluate the         Information Technology Reviews:
Technology of the IRS           IRS’s adequacy and security of its     Ref. No. 2014-20-002, February 2014
                                technology.                            Ref. No. 2014-20-016, February 2014
I.R.C. § 7803(d)(1)(D)




Federal Financial               Requires TIGTA to evaluate the         In fieldwork phase.
Management Improvement          financial management systems to
Act of 1996 (FFMIA)             ensure compliance with Federal
                                requirements or the establishment
31 U.S.C. § 3512                of a remediation plan with
                                resources, remedies, and
                                intermediate target dates to bring
                                the IRS into substantial
                                compliance.




                                                                   October 1, 2013 – March 31, 2014          81
             TIGTA SEMIANNUAL REPORT TO CONGRESS


         Reference to                      Explanation of the                Comments/TIGTA Audit
      Statutory Coverage                       Provision                           Status

     Office of National Drug            Requires TIGTA to authenticate    Ref. No. 2014-10-015, January 2014
     Control Policy (ONDCP)             the IRS’s ONDCP detailed          Nothing came to TIGTA’s attention that
     Detailed Accounting                accounting submission and         caused TIGTA to believe that the
     Submission and Assertions          assertions.                       assertions in the Detailed Accounting
                                                                          Submission and Performance Summary
     National Drug Enforcement                                            Report are not fairly presented in all
     Policy 21 U.S.C. § 1704(d) and                                       material respects in accordance with
     the Office of National Drug                                          ONDCP-established criteria.
     Control Policy Circular entitled
     Drug Control Accounting, dated
     May 1, 2007.


     Government Charge Card             Requires TIGTA to report on IRS   Ref. No. 2014-10-014, January 2014
     Abuse Prevention Act of 2012       progress in implementing          TIGTA found that the IRS properly
                                        purchase and travel card audit    reported four instances of identified
     Pub. L. No. 112-194 (October       recommendations.                  purchase card misuse. TIGTA’s
     2012).                                                               independent review identified one
                                                                          confirmed violation of purchase card
                                                                          fraud during the reporting period that
                                                                          resulted in the resignation of the
                                                                          responsible card holder. In addition,
                                                                          TIGTA identified two potential purchase
                                                                          card violations pending final agency
                                                                          action and one potential purchase card
                                                                          violation pending investigation.

                                                                          Six TIGTA recommendations remain
                                                                          open and are scheduled for
                                                                          implementation by the IRS in Fiscal Year
                                                                          2014. Once implemented, these
                                                                          recommendations will further enhance
                                                                          the IRS’s internal controls for its charge
                                                                          card programs. Finally, an additional 14
                                                                          prior TIGTA recommendations related to
                                                                          purchase or travel cards were
                                                                          implemented and closed during Fiscal
                                                                          Year 2013.




82           October 1, 2013 – March 31, 2014
                   TIGTA SEMIANNUAL REPORT TO CONGRESS


    Reference to                  Explanation of the                   Comments/TIGTA Audit
 Statutory Coverage                   Provision                              Status

Improper Payments              Requires TIGTA to assess the         Ref. No. 2014-40-027, March 2014
Elimination and Recovery Act   IRS’s compliance with improper       The IRS continues not to provide all
of 2010 (IPERA)                payment requirements.                required IPERA information to the
                                                                    Department of the Treasury for inclusion
31 U.S.C. § 3321                                                    in the Department of the Treasury
                                                                    Agency Financial Report Fiscal Year
                                                                    2013. For the third consecutive year, the
                                                                    IRS did not publish annual reduction
                                                                    targets or report an improper payment
                                                                    rate of less than 10 percent of the EITC.
                                                                    Additionally, although risk assessments
                                                                    were performed for each of the programs
                                                                    that the Department of the Treasury
                                                                    required the IRS to assess, the risk
                                                                    assessment process still does not
                                                                    provide a valid assessment of improper
                                                                    payments in tax administration. As such,
                                                                    the EITC remains the only revenue
                                                                    program fund to be considered at high-
                                                                    risk for improper payments.

                                                                    IRS management has indicated that the
                                                                    IRS and the Department of the Treasury
                                                                    are in continued discussions with the
                                                                    Office of Management and Budget to
                                                                    obtain its approval to develop
                                                                    supplemental measures that are
                                                                    appropriate to gauge the impact of EITC
                                                                    compliance and outreach efforts in lieu of
                                                                    developing error reduction targets.




Executive Order 13520,         Requires TIGTA to assess the         In fieldwork phase.
Reducing Improper Payments     IRS’s compliance with the Order
and Eliminating Waste in       on an annual basis.
Federal Programs




                                                                 October 1, 2013 – March 31, 2014                83
            TIGTA SEMIANNUAL REPORT TO CONGRESS



                                      Appendix IV

                           Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate any IRS employee if there is a
final administrative or judicial determination that, in the performance of official duties, such
employee committed any misconduct violations outlined below. Such termination shall be a
removal for cause on charges of misconduct.

Misconduct violations include:

        Willfully failing to obtain the required approval signatures on documents authorizing the
         seizure of a taxpayer’s home, personal belongings, or business assets;
        Providing a false statement under oath with respect to a material matter involving a
         taxpayer or taxpayer representative;
        Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
         IRS, any right under the Constitution of the United States, or any civil right established
         under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education Amendments
         of 1972; Age Discrimination in Employment Act of 1967; Age Discrimination Act of 1975;
         Section 501 or 504 of the Rehabilitation Act of 1973; or Title I of the Americans with
         Disabilities Act of 1990;
        Falsifying or destroying documents to conceal mistakes made by any employee with
         respect to a matter involving a taxpayer or taxpayer representative;
        Committing assault or battery on a taxpayer, taxpayer representative, or other employee of
         the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
         case, with respect to the assault or battery;
        Violating the Internal Revenue Code of 1986, as amended (the Code), the Department of
         the Treasury regulations, or policies of the IRS (including the IRM) for the purpose of
         retaliating against or harassing a taxpayer, taxpayer representative, or other employee of
         the IRS;
        Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
         information from a congressional inquiry;
        Willfully failing to file any return of tax required under the Code on or before the date
         prescribed therefore (including any extensions), unless such failure is due to reasonable
         cause and not to willful neglect;
        Willfully understating Federal tax liability, unless such understatement is due to reasonable
         cause and not to willful neglect; and
        Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her sole
discretion, may establish a procedure that will be used to decide whether an individual should be
referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial proceeding.


84         October 1, 2013 – March 31, 2014
                  TIGTA SEMIANNUAL REPORT TO CONGRESS



                                 Appendix V

          Implementing Section 989C of the
         Dodd-Frank Wall Street Reform and
              Consumer Protection Act

      Inspector General Peer Review Activity
      October 1, 2013 through March 31, 2014


No Peer Review Conducted of TIGTA Office of Investigations:

No peer reviews were conducted of the TIGTA Office of Investigations during this
reporting period. In accordance with the three-year cycle, no external peer review
was required during this reporting period.

Last Peer Review Conducted by TIGTA Office of Investigations:

No peer reviews were conducted by the TIGTA Office of Investigations during this
reporting period.

Last Peer Review Conducted of TIGTA Office of Inspections and Evaluations

No peer reviews were conducted of the TIGTA Office of Inspections and
Evaluations during this reporting period.

No Peer Review Conducted of TIGTA Office of Audit:

No peer reviews were conducted on the TIGTA Office of Audit during this reporting
period. In accordance with the three-year cycle, no external peer review was
required during this reporting period.




                                                    October 1, 2013 – March 31, 2014   85
               TIGTA SEMIANNUAL REPORT TO CONGRESS



                                         Appendix VI
                      Data Tables Provided by the IRS

The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that follow the
memorandum contain information that the IRS provided to TIGTA and consist of IRS employee
misconduct reports from the IRS Automated Labor and Employee Relations Tracking System
(ALERTS) for the period from October 1, 2013 through March 31, 2014. Also, data concerning
substantiated RRA 98 § 1203 allegations for the same period are included. IRS management
conducted inquiries into the cases reflected in these tables.




      86       October 1, 2013 – March 31, 2014
                                  TIGTA SEMIANNUAL REPORT TO CONGRESS


            Reports of Employee Misconduct for the Period
               October 1, 2013 through March 31, 2014
                   Summary by Disposition Groups
                     (Tables Provided by the IRS)
              Disposition               TIGTA Report    Administrative    Employee Tax    Employee Character    Totals
                                             of            Case            Compliance       Investigation
                                        Investigation                        Case

REMOVAL (PROBATION PERIOD COMPLETE)          28              36                 8                  0             72

REMOVAL AT OPM DIRECTION                     0                0                 0                  7              7

PROBATION/SEPARATION                         1               31                 0                  3             36

SEPARATION OF TEMP                           0                0                 0                  0              0

RESIGN.,RET., ETC. (SF50 NOTED)              5                8                 5                  1             19

RESIGN. RET., ETC. (SF50 NOT NOTED)          41              40                18                  2             101

SUSP., 14 DAYS OR LESS                       57              114               59                  2             232

SUSP., MORE THAN 14 DAYS                     35              32                10                  0             77

INDEFINITE SUSPENSION                        0                8                 0                  0              8

REPRIMAND                                    43              126               97                  7             273

ADMONISHMENT                                 34              119               179                 1             333

WRITTEN COUNSELING                           48              140               105                 0             293

ORAL COUNSELING                              0               45                 9                  0             54

A D: IN LIEU OF REPRIMAND                    2               17                10                  0             29

A D: IN LIEU OF SUSPENSION                   12              21                11                  1             45

CLEARANCE LETTER                             76              66                 7                  0             149

CWA CAUTIONARY LTR                           83              139               76                 31             329

CWA LETTER                                   24              77                24                  5             130
TERMINATION FOR ABANDOMENT OF
POSITION                                     0                7                 0                  0              7

CASE SUSPENDED PENDING EMPLOYEE RTD          0                0                 0                  0              0

CLOSED – SUPPLEMENTAL REQUESTED              0                0                 0                  0              0

FORWARDED TO TIGTA                           0               11                 0                  0             11
Total                                       489             1037               619                60            2205




                                                                     October 1, 2013 – March 31, 2014      87
             TIGTA SEMIANNUAL REPORT TO CONGRESS

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

Notes: Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated
with a 0.

A D is an abbreviation for “Alternative Discipline.”

This report is being produced in accordance with 26 U.S.C. § 7803(d)(2) and § 4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.                                 Extract Date: Wednesday, April 2, 2014




88           October 1, 2013 – March 31, 2014
                       TIGTA SEMIANNUAL REPORT TO CONGRESS


   Reports of Employee Misconduct for the Period
      October 1, 2013 through March 31, 2014
                 National Summary
            (Tables Provided by the IRS)

                                                               Cases Closed
                                     Conduct
   Inventory            Open                                        Cases                       Ending
                                      Cases                                        Non-
   Case Type          Inventory                     Conduct        Merged                      Inventory
                                     Received                                    Conduct
                                                     Issues       with Other
                                                                                  Issues
                                                                    Cases


ADMINISTRATIVE           480            1428          1372            24             54           458
CASE

EMPLOYEE
CHARACTER                 40             48             71             0              0            17
INVESTIGATION


EMPLOYEE TAX
COMPLIANCE               544            1168           922            223             0           567
CASE


TIGTA REPORT
OF                       515            711            602            10              0           614
INVESTIGATION

Total                    1579           3355          2967            257            54           1656



Source: Automated Labor and Employee Relations Tracking System (ALERTS)

TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation
into alleged misconduct and referred a Report of Investigation (ROI) to IRS for appropriate action.

Administrative Case - Any matter involving an employee in which management conducted an inquiry into
alleged misconduct.

Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance
program which becomes a matter of official interest.

Background Investigations - Any matter involving an National Background Information Center investigation
into an employee's background that is referred to management for appropriate action.

This report is being produced in accordance with 26 U.S.C. § 7803(d)(2) and § 4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.                                 Extract Date: Wednesday, April 2, 2014

                                                              October 1, 2013 – March 31, 2014             89
               TIGTA SEMIANNUAL REPORT TO CONGRESS


                      Summary of Substantiated
                   I.R.C. Section 1203 Allegations
                 Recorded in ALERTS for the Period
               October 1, 2013 through March 31, 2014
                     (Tables Provided by the IRS)
                                                                  Removed                          In
                                      Resigned     Probation                    Penalty
  § 1203 Violation       Removals                                 On Other                     Personnel    Total
                                       /Retired    Separation                   Mitigated
                                                                  Grounds                       Process

§ 1203(b)(10) Threat
                             0             0            0              0             0            0           0
  of Audit/Personal
§ 1203(b)(1) Willfull        0             0            0              0             0            0           0
  Unauth Seiz TP
     § 1203(b)(2)
  False Statement            0             0            0              0             0            0           0
     Under Oath
     § 1203(b)(3)
                             0             0            0              0             0            1           1
Civ Rights/Const Viol
     § 1203(b)(4)
  Concealed Work             0             0            0              3             1            1           5
         Error
     § 1203(b)(5)
 Conviction Assault          0             0            0              0             0            0           0
          Batt
     § 1203(b)(6)
    IRC/IRM/Reg              0             0            0              1             0            0           1
      Viol-Retal
     § 1203(b)(8)
   Willful Untimely          6             0            0              0             6            18          31
        Return
     § 1203(b)(9)
 Willful Understated         0             3            0              0             7            17          29
          Tax
       Total                 8             4            0              4            14            37          67

  Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review
  Board records.

  The cases reported as "Removals" and "Penalty Mitigated" do not reflect the results of any
  third-party appeal.

  Columns containing numbers of two or fewer and protected by I.R.C. Section 6103 are annotated with a 0.

  Extract Date: Wednesday, April 3, 2013

  90           October 1, 2013 – March 31, 2014
         TIGTA SEMIANNUAL REPORT TO CONGRESS



          Glossary of Acronyms
ACA        Affordable Care Act

CIGIE      Council of the Inspectors General on Integrity and Efficiency

CIP        Compliance Initiative Project

CY         Calendar Year

EIN        Employer Identification Numbers

EITC       Earned Income Tax Credit

FATCA      Foreign Account Tax Compliance Act

FFMIA      Federal Financial Management Improvement Act of 1996
FY         Fiscal Year

HHS        Health and Human Services

I&E        Inspections and Evaluations

I.R.C.     Internal Revenue Code

IRS        Internal Revenue Service

LB&I       Large Business and International

LTTT       Long-term Taxable Travel

MMC        Major Management Challenges

MDOR       Missouri Department of Revenue

MODES      Missouri Division of Employment Security

NTEU       National Treasury Employees Union

OA         Office of Audit

OEP        Office of Employee Protection

OI         Office of Investigations


                                           October 1, 2013 – March 31, 2014   91
             TIGTA SEMIANNUAL REPORT TO CONGRESS



     OMB                 Office of Management and Budget
     PII                 Personally Identifiable Information
     RRA 98              IRS Restructuring and Reform Act of 1998
     SB/SE               Small Business/Self-Employed
     SDS                 Strategic Data Services
     SEP                 Simplified Employee Pension
     SSN                 Social Security Number

     TIGTA               Treasury Inspector General for Tax Administration

     TIN                 Taxpayer Identification Number
     TY                  Tax Year
     U.S.                United States


                     ACRONYMS USED EXCLUSIVELY IN APPENDICES
     CFO                 Chief Financial Officer
     DCE                 Detection Controlled Estimation
     NRP                 National Research Project
     RAS                 Research, Analysis and Statistics
     RCT                 Religious Compensatory Time




92          October 1, 2013 – March 31, 2014
TIGTA SEMIANNUAL REPORT TO CONGRESS




                            October 1, 2013 – March 31, 2014   93
     TIGTA SEMIANNUAL REPORT TO CONGRESS




94   October 1, 2013 – March 31, 2014
